<html>
<title> - SURVEILLANCE, SUPPRESSION, AND MASS DETENTION: XINJIANG'S HUMAN RIGHTS CRISIS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


SURVEILLANCE, SUPPRESSION, AND MASS DETENTION: XINJIANG'S HUMAN RIGHTS 
                                 CRISIS
=======================================================================

                                HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 26, 2018

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


              Available at www.cecc.gov or www.govinfo.gov
              
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-993 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c6b7c634c6f797f786469607c226f636122">[email&#160;protected]</a>                             
              


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



 Senate                                    House

MARCO RUBIO, Florida, Chairman       CHRIS SMITH, New Jersey, 
TOM COTTON, Arkansas                 Cochairman
STEVE DAINES, Montana                ROBERT PITTENGER, North Carolina
JAMES LANKFORD, Oklahoma             RANDY HULTGREN, Illinois
TODD YOUNG, Indiana                  MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         TIM WALZ, Minnesota
JEFF MERKLEY, Oregon                 TED LIEU, California
GARY PETERS, Michigan
ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                   Elyse B. Anderson, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Marco Rubio, a U.S. Senator from 
  Florida; Chairman, Congressional-Executive Commission on China.     1
Christino III, Anthony, Director of the Foreign Policy Division, 
  Office of Nonproliferation and Treaty Compliance, Bureau of 
  Industry and Security, U.S. Department of Commerce.............     4
Currie, Ambassador Kelley E., Representative of the United States 
  on the Economic and Social Council of the United Nations, 
  United States Mission to the United Nations....................     6
Smith, Hon. Christopher, a U.S. Representative from New Jersey; 
  Cochairman, Congressional-Executive Commission on China........    11
Hoja, Gulchehra, Uyghur Service journalist, Radio Free Asia......    25
Thum, Rian, Associate Professor, Loyola University New Orleans...    26
Batke, Jessica, Senior Editor, ChinaFile and former research 
  analyst at the Department of State.............................    27

                                APPENDIX
                          Prepared Statements

Christino III, Anthony...........................................    43
Currie, Kelley E.................................................    44
Hoja, Gulchehra..................................................    48
Thum, Rian.......................................................    50
Batke, Jessica...................................................    56

Rubio, Hon. Marco................................................    64
Smith, Hon. Christopher..........................................    65

                       Submissions for the Record


Article entitled ``New Evidence for China's Political Re-
  education Campaign in Xinjiang,'' submitted by Senator Rubio...    68
Article entitled ``Apartheid with Chinese Characteristics,'' 
  submitted by Senator King......................................    74
Article entitled ``What Really Happens in China's Re-education 
  Camps,'' submitted by Rian Thum................................    80
Letter to Secretary Pompeo, submitted by Senator Rubio...........    82

Witness Biographies..............................................    84

                                 (iii)

 
SURVEILLANCE, SUPPRESSION, AND MASS DETENTION: XINJIANG'S HUMAN RIGHTS 
                                 CRISIS

                              ----------                              


                        THURSDAY, JULY 26, 2018

               Congressional-Executive Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:07 
a.m., in room 124, Dirksen Senate Office Building, Senator 
Marco Rubio, Chairman, presiding.
    Present: Representative Smith, Cochairman, Senator King, 
Representative Lieu, Senator Cotton, and Senator Daines.
    Also Present: Ambassador Kelley E. Currie, Representative 
of the United States on the Economic and Social Council of the 
United Nations, United States Mission to the United Nations; 
Anthony Christino III, Director of the Foreign Policy Division, 
Office of Nonproliferation and Treaty Compliance, Bureau of 
Industry and Security, United States Department of Commerce; 
Gulchehra Hoja, Uyghur Service journalist, Radio Free Asia; 
Rian Thum, Associate Professor, Loyola University New Orleans; 
and Jessica Batke, Senior Editor, ChinaFile and former research 
analyst at the Department of State.

  OPENING STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM 
 FLORIDA; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Rubio. Good morning. This hearing of the 
Congressional-Executive Commission on China will come to order. 
The title of this hearing is ``Surveillance, Suppression, and 
Mass Detention: Xinjiang's Human Rights Crisis.''
    We have two panels testifying today. The first panel will 
feature Ambassador Kelley Currie, the Representative of the 
United States on the Economic and Social Council of the United 
Nations, United States Mission to the United Nations; and 
Anthony Christino III who is the Director of the Foreign Policy 
Division, Office of Nonproliferation and Treaty Compliance, 
Bureau of Industry and Security at the U.S. Department of 
Commerce.
    We'll have a second panel--Gulchehra Hoja, Uyghur Service 
journalist, Radio Free Asia; Rian Thum, an associate professor 
at Loyola University New Orleans; and Jessica Batke, Senior 
Editor at ChinaFile and a former research analyst at the U.S. 
Department of State.
    I want to thank you for being here. I know one of our 
initial panel witnesses is delayed, as happens in this great 
city that we call our nation's capital. But we are going to 
begin, and we will accommodate that accordingly.
    I want to begin by noting that this hearing is set against 
the backdrop this week of Secretary Pompeo and Ambassador for 
International Religious Freedom Sam Brownback convening the 
first-ever State Department Ministerial to Advance 
International Religious Freedom, an event which has brought 
together senior representatives from more than 70 governments 
around the world to discuss areas of collaboration and 
partnership in the cause of religious freedom globally.
    Secretary Pompeo penned an opinion piece in USA Today 
earlier this week highlighting the Ministerial and the 
importance of advancing religious freedom globally. Of note, he 
specifically mentioned Ms. Gulchehra and family.
    While the Chinese government and the Communist Party are 
equal opportunity oppressors targeting unregistered and 
registered Christians, Tibetan Buddhists, Falun Gong 
practitioners, and others with harassment, detention, 
imprisonment and more, the current human rights crisis 
unfolding in the Xinjiang Uyghur Autonomous Region targeting 
Muslim minority groups is arguably among the worst, if not the 
most severe, instances in the world today of an authoritarian 
government brutally and systematically targeting a minority 
faith community. This is an issue that the Commission has been 
dealing with for some time.
    In April, we wrote U.S. Ambassador to China Terry Branstad 
urging him to prioritize this crackdown in his interactions 
with the Chinese government and to begin collecting information 
to make the case for possible application of Global Magnitsky 
sanctions against senior government and Party officials in the 
region, including Chen Quanguo, the current Xinjiang Communist 
Party Secretary.
    The Commission's forthcoming Annual Report, set to be 
released this October, will prominently feature the grave and 
deteriorating situation we will cover here today.
    While our expert witnesses will discuss the situation in 
greater detail, I want to take a few minutes to paint a picture 
of life in Xinjiang.
    For months now, there have been credible estimates of 
between 800,000 and 1 million people from this region being 
held at political reeducation centers or camps which are 
fortified with barbed wire, bombproof surfaces, reinforced 
doors, and guard rooms. Security personnel at these facilities, 
at these camps, have subjected detainees to torture, to medical 
neglect and maltreatment, to solitary confinement, to sleep 
deprivation, to lack of adequate clothing in cold temperatures, 
and other forms of abuse resulting in the death of some of 
these detainees.
    According to one news source, ``The internment program aims 
to rewire the political thinking of detainees, erase their 
Islamic beliefs and reshape their very identities. The camps 
have expanded rapidly over the past year, with almost no 
judicial process or legal paperwork. Detainees who most 
vigorously criticize the people and things they love are 
rewarded, and those who refuse to do so are punished with 
solitary confinement, with beatings and food deprivation.'' 
That was a quote from the media coverage of this.
    Some local officials in the region have used chilling 
political rhetoric to describe the very purpose of the 
arbitrary detentions of Uyghur Muslims and members of other 
Muslim ethnic minority groups. These are the terms they've 
used: ``eradicating tumors'' or spraying chemicals on crops to 
``kill the weeds.'' One expert who is testifying today 
described Uyghur Xinjiang as ``a police state to rival North 
Korea, with a formalized racism on the order of South African 
apartheid.''
    While the Chinese government has repeatedly denied 
knowledge of the camps, a groundbreaking report by Adrian Zenz, 
a scholar at the European School of Culture and Theology, 
published through the Jamestown Foundation in May, found that 
Chinese authorities were soliciting public bids for the 
construction of additional camps and the addition of security 
elements to existing facilities.
    I would submit this report for the record and would also 
note the Google Earth footage behind me, which clearly shows 
the construction of these camps over the span of several 
months.
    [The submitted document appears in the Appendix.]
    Those not subject to ``transformation through education''--
as they call it--in these detention facilities still face daily 
intrusions in their home life. This includes compulsory ``home 
stays,'' wherein Communist Party officials and government 
workers are sent to live with local Uyghur and Kazakh families.
    The data-driven surveillance in Xinjiang is assisted by 
iris and body scanners, voice pattern analyzers, DNA 
sequencers, and facial recognition cameras in neighborhoods, on 
roads, or in train stations. Two large Chinese firms, Hikvision 
and Dahua Technology, have profited greatly from the surge in 
security spending, reportedly winning upwards of $1.2 billion 
in Chinese government contracts for large-scale surveillance 
projects.
    Authorities employ hand-held devices to search smartphones 
for encrypted chat apps and require residents to install 
monitoring applications on their cell phones. More traditional 
security measures are also employed. That includes extensive 
police checkpoints.
    The rise in security personnel is also accompanied by the 
proliferation of ``convenience police stations,'' a dense 
network of street corner, village, or neighborhood police 
stations that enhances authorities' ability to closely surveil 
and police local communities.
    Just this month, reports emerged of officials, in a 
humiliating public act, cutting the skirts and even long shirts 
of Uyghur women on the spot, as they walked through local 
streets. They did so as a means of enforcing a ban on ethnic 
minorities wearing long skirts.
    And yesterday there was an analysis released by the NGO 
Chinese Human Rights Defenders indicating that 21 percent of 
arrests in China last year were in Xinjiang, which has only 1.5 
percent of the population--21 percent of the arrests last year 
in all of China concentrated in an area with 1.5 percent of the 
population. The number of arrests increased 731 percent over 
the previous year and that does not include the detentions of 
those in the ``political re-education centers,'' which are 
carried out extralegally.
    Radio Free Asia has led the way in reporting on this 
crisis. And that has not come without a cost. Developments in 
Xinjiang have had a direct impact on U.S. interests, most 
notably the detention of dozens of family members of U.S.-based 
Uyghur journalists employed by Radio Free Asia, as well as the 
detention of dozens of family members of prominent Uyghur 
rights activist Rebiya Kadeer, in an apparent attempt by the 
Chinese government to silence effective reporting and rights 
advocacy. We are delighted that RFA journalist Gulchehra Hoja 
can join us today to speak to her personal experience in this 
regard.
    The Commission has convened a series of hearings focused on 
the ``long arm'' of China, and that dimension certainly exists 
as it relates to the Uyghur diaspora community, including right 
here in the United States.
    With that, I want to welcome our witnesses. Why don't I 
start with you, Mr. Christino, since Ambassador Currie----
    Staffer. She's here.
    Senator Rubio. I know. But I want to give her a second to 
catch up. I saw her walk in.
    Why don't we start with you. I was late a few minutes as 
well. I know it takes time to put it all together.
    So, welcome. Thank you for being here today.

  STATEMENT OF ANTHONY CHRISTINO III, DIRECTOR OF THE FOREIGN 
    POLICY DIVISION, OFFICE OF NONPROLIFERATION AND TREATY 
COMPLIANCE, BUREAU OF INDUSTRY AND SECURITY, U.S. DEPARTMENT OF 
                            COMMERCE

    Mr. Christino. Thank you, Chairman Rubio, Chairman Smith, 
and other Members of the Commission on China for convening this 
hearing today on this important topic. Today I will discuss the 
role of the Bureau of Industry and Security regarding export 
license requirements for China.
    Under the Export Administration Regulations, known as the 
EAR, a Bureau of Industry and Security license is required for 
the export or reexport of most items on the Commerce Control 
List to China. Items on the CCL are identified by their 
individually assigned Export Control Classification Numbers 
according to the reasons for control, such as crime control and 
detection, known as Crime Control.
    The Commerce Control List is also comprised of items 
controlled by the multilateral export control regimes such as 
the Wassenaar Arrangement, the Missile Technology Control 
Regime, the Australia Group, and the Nuclear Suppliers Group, 
as well as items controlled unilaterally for foreign policy 
reasons. And here I would draw the distinction with the crime 
controls--they are in fact unilateral, unlike controls over 
nuclear items and other items that would be of concern for 
security reasons to our international partners, and therefore 
controlled on one of the regimes.
    In support of U.S. foreign policy specifically to promote 
the observance of human rights throughout the world, the United 
States controls items on the Commerce Control List as required 
by Section 6(n) of the Export Administration Act, as amended. 
As set forth in the Export Administration Regulations, the U.S. 
Government requires a license to export most crime control and 
detection instruments, equipment, related technology, and 
software to all destinations other than our closest allies such 
as NATO members Australia, Japan, etc. Additionally, a license 
is required to export certain crime-control items, including 
restraint-type devices such as handcuffs and discharge-type 
arms such as stun guns, to all destinations with the single 
exception of Canada.
    The Export Administration Regulations impose limited 
controls on some items not on the Commerce Control List. Items 
subject to Commerce licensing jurisdiction under our 
regulations, but not specifically identified on the Control 
List, are designated as EAR99. Such items generally do not 
require a license for export or reexport to China unless 
destined to weapons of mass destruction-related end uses or end 
users, or unless the items are part of a transaction involving 
a restricted party identified on one of several lists 
maintained by agencies of the U.S. Government, including the 
Bureau of Industry and Security's entity list, the Department 
of State's restricted list, and the Department of the 
Treasury's specially designated nationals list.
    Items controlled for crime-control reasons are added to or 
removed from the CCL based on continuous review of the merits 
of maintaining the controls and the effectiveness of the 
controls. Section 6 of the EAR prohibits the imposition of 
foreign policy controls including crime-control items unless 
certain determinations are made and certain factors reported to 
Congress, such as the determination that the controls are 
likely to achieve the intended foreign policy objective, a 
description of consultative efforts with industry and other 
supplier countries, and determinations related to the economic 
impact on U.S. business and industry.
    There is a specific crime control licensing review policy 
related to China. The U.S. Government considers applications to 
export or reexport most crime-control items favorably on a 
case-by-case basis unless there is civil disorder in a country 
or the sale involves a region of concern or there is evidence 
that the government may have violated human rights.
    The purpose of the controls is to deter the development of 
a consistent pattern of human rights abuses, distance the 
United States from such abuses, and avoid contributing to 
disorder in a country or region. Now we maintain a general 
policy of denial for certain items: Applications to export 
crime-control items to countries that are not otherwise subject 
to sanctions or comprehensive embargoes but are identified by 
the Department of State as human rights violators, receive 
additional scrutiny and are generally denied. There are 
specific controls related to legislation popularly referred to 
as Tiananmen Square sanctions.
    I'd like to conclude by just noting that we do not receive 
very many applications for exports to China. We did receive 25 
last calendar year--21 were for the return of defective items 
manufactured in China. They were returned to the original 
Chinese manufacturers. There were nine denials, including 
applications for stun guns, optical sighting devices, pepper 
spray, etc., and voiceprint software, which I know was of 
interest.
    I am happy to answer any questions you have on my testimony 
or anything relevant to the Export Administration Regulations 
and the controls we maintain specific to China and crime-
control items. Thank you.
    Chairman Rubio. Thank you.
    [The prepared statement of Mr. Christino appears in the 
Appendix.]
    Chairman Rubio. Ambassador Currie.

STATEMENT OF AMBASSADOR KELLEY E. CURRIE, REPRESENTATIVE OF THE 
UNITED STATES ON THE ECONOMIC AND SOCIAL COUNCIL OF THE UNITED 
      NATIONS, UNITED STATES MISSION TO THE UNITED NATIONS

    Ambassador Currie. Thank you so much, Senator Rubio. I 
apologize. I think you know we have the IRF (International 
Religious Freedom) Ministerial going on this week and between 
that and trying to get down here from New York this morning, it 
was a little bit difficult. But I do want to express our 
appreciation for you and the Commission holding this very 
important hearing today.
    I am pleased to be able to appear before the Commission on 
behalf of the U.S. Mission to the United Nations and discuss 
our concerns regarding the growing human rights crisis in 
Xinjiang, with a particular focus on how this crisis is being 
addressed--or not--at the United Nations. I would like to 
submit my full remarks for the record and just give a brief 
summary of them.
    The United States is deeply troubled by the Chinese 
government's worsening crackdown on Uyghurs, Kazakhs, and other 
Muslims in China's Xinjiang Uyghur Autonomous Region. Since 
April 2017, the Xi Jinping leadership, under the guise of 
fighting ``terrorism,'' ``secession,'' and ``religious 
extremism,'' has greatly intensified the Chinese Communist 
Party's long-standing repressive policies against mainstream 
nonviolent Muslim cultural and religious practices in Xinjiang.
    The stated goal of the current campaign is to ``sinicize 
religion'' and ``adapt religion to a socialist society,'' 
suggesting that Beijing believes it now possesses the 
political, diplomatic, and technological capabilities to 
transform religion and ethnicity in Chinese society in a way 
that its predecessors never could, even during the peak horrors 
of the Cultural Revolution and other heinous Maoist campaigns 
intended to remake Chinese society.
    The scope of this campaign is truly breathtaking. 
Authorities now prohibit ``abnormal'' beards, the wearing of 
veils in public, and classify refusal to watch state television 
as a crime, refusal to wear shorts, abstention from alcohol and 
tobacco, refusal to eat pork, fasting during the holy month of 
Ramadan, and practicing traditional funeral rituals as 
potential signs that individuals harbor extreme religious 
views.
    Chinese authorities have banned parents from giving their 
children a number of traditional Islamic names, including 
Muhammad, Islam, Fatima, and Aisha, and have reportedly 
required children under age 16 who have Islamic names to change 
them. Of particular concern, since 2015 Chinese authorities 
have increasingly criminalized or punished the teaching of 
Islam to young people, even by their parents, adopting at least 
six new laws or regulations to put parents and religious 
leaders at legal risk if they promote nonviolent Muslim 
scripture, rituals, and clothing to children.
    Chinese authorities also continue to crack down in 
particular on the use of Uyghur and other minority languages at 
universities and in classroom instruction.
    As you noted, we now believe, based on a wide array of 
evidence, that the number of individuals detained in re-
education centers for violating these strictures since April 
2017 numbers in at least the hundreds of thousands, possibly 
millions. There are even disturbing reports that young children 
have been sent to state-run orphanages if only one of their 
parents is detained in internment camps. We call on China to 
end these counterproductive policies and free all those 
arbitrarily detained.
    As you noted, with many things related to China's human 
rights abuses, the repression does not stop at the Chinese 
border. The detention and persecution of Uyghur and other 
Muslim minorities in Xinjiang has compelled them to stop 
communicating with their family and friends abroad. We also are 
concerned by reports of Chinese authorities harassing Uyghurs 
abroad to compel them to act as informants, return to Xinjiang, 
or remain silent about the situation.
    Chinese authorities appear to be targeting law-abiding 
Uyghurs--including nonviolent activists and advocates for human 
rights at home and abroad--as terrorist threats based solely on 
the basis of their political, cultural, and religious beliefs 
and practices.
    Given the disturbing and severe nature of this crisis, it's 
worth asking why the pre-eminent human rights bodies of the 
United Nations haven't taken up this issue, exposed it, and 
demanded changes in China's policies. Part of the answer 
certainly lies in China's membership on the Human Rights 
Council and as a permanent member of the Security Council, as 
well as in its ability to portray itself as a member of the 
``Global South'' in the Group of 77.
    During the question and answer period I would be happy to 
give more examples of how this is working at the UN and share 
with you some of the particular experiences we've had, 
including with the attempts by the Chinese to silence Uyghur 
activists who wish to speak in UN forums, such as Dolkan Isa, 
during the recent forum on indigenous peoples, and even shut 
down human rights organizations and civil society organizations 
that sponsor individuals such as Mr. Isa and their attempt to 
speak.
    I know I have run out of time, and I will leave that to the 
Q & A.
    Thank you, again, for the opportunity to talk about these 
important issues.
    Chairman Rubio. Thank you for making the trip down here.
    [The prepared statement of Ambassador Currie appears in the 
Appendix.]
    Chairman Rubio. I want to start with just an editorial 
statement and then go into a couple of questions. And I don't 
even know how to do this while still containing my anger.
    We are a free society--let me just start there--in the 
United States. As just an example, what you have just described 
here, what we are going to hear today is stuff from--like a 
horrible movie. These are crazy things--things that we've read 
about that used to happen thousands of years ago or things that 
happened under these regimes in a science fiction novel.
    I mean, talking about forcing people to eat certain foods 
that violate the dietary laws of their religion, controlling 
what people name their children, trying to strip their identity 
from them, both religious and ethnic. The list goes on. These 
are some of the most horrifying things that are happening in 
the world today. That it doesn't lead newscasts in the country 
and around the world in and of itself is problematic.
    And then in this free country that we have--this is what I 
was alluding to at the beginning--we have multinational 
corporations who have every right--and I do not criticize them 
for this. They have every right to be involved civically in our 
country. When things happen in America and they don't like it, 
they stop selling products, they boycott cities and towns. 
They've done all sorts of things and it's their right to do so.
    These are the same companies that are up here every day in 
Washington, D.C. lobbying for us not to raise these issues so 
they can have access to China's 1.4/1.3 billion-person 
marketplace. And I just think it's hypocritical for American 
corporations and multinationals doing business in China who are 
fully prepared to boycott American cities and American 
communities because they don't like things that are happening 
here to be okay, to turn a blind eye to what is happening and 
not criticize the government of China and the Communist Party 
because they don't want to jeopardize their ability to sell 
products in that country.
    It's an outrage. It's an embarrassment. And I hope--again, 
I doubt this is going to make it onto the CBS evening news or 
any of the cable news shows tonight, but this is outrageous and 
it's hypocritical. And the international organizations that 
stand by and say nothing--why? Because China went into 
somebody's country and built a road or a bridge or maybe bribed 
them and gave them a billion dollars to be quiet and go along.
    This is sick. And I just don't understand why there isn't 
more coverage of this and why there isn't more understanding of 
who we're dealing with here and what they're up to and what 
they do. And the next time someone comes to me and says, Well, 
you don't understand China, their peaceful rise, and this, 
that, and the other--I have no problem. I have tremendous 
admiration for the ancient culture and history of China and of 
its people. And I want China to be a key player in the world. 
We would love to have some help in dealing with all of the 
challenges on this planet. It would be great to have another 
superpower to partner with.
    But this is what these people do with the power they have 
now. Imagine what they will do when that power grows 
militarily, economically, and geopolitically. Because if this 
is how you treat your own people, how do you expect them to 
treat people in some other part of the world? And I hope people 
wake up and understand what we're confronting here and the 
grave crisis that it presents.
    In that vein, Mr. Christino, as you know, Representative 
Smith and I wrote a letter. I have the letter here. It is dated 
May 9, 2018--to Secretary Ross. We were asking for answers 
about the sale by U.S. companies, American companies selling 
surveillance and crime-control technology that is being used by 
Chinese security forces and by their police. We specifically 
raised concerns about a company named Thermo Fisher Scientific 
which is a company in Massachusetts which reportedly is selling 
DNA sequencers with advanced microprocessors to the Chinese 
Ministry of Public Security and its Public Security Bureaus 
across China.
    The reply we got from Commerce noted that these DNA 
sequencers have a legitimate end use, and I am sure they have a 
legitimate end use. But they also have an illegitimate end use. 
So what other recourse do we have if we know that this material 
is being used in this manner--what other recourse do we have 
other than to restrict their sale? Despite the fact that they 
may have some legitimate use--theoretically, there is a 
legitimate use for any product that is sold abroad. But we 
don't sell these products because they are misused by the 
people who are buying them. Why do we continue to allow the 
sale of American technology to be used to commit this level of 
atrocities?
    Mr. Christino. Sir, I can point out to you that we have two 
types of controls relative to the Export Administration 
Regulations: controls over items, such as the DNA sequencer 
itself. And as you correctly pointed out, due to the multiple 
uses of it and the fact that it's not used solely or primarily 
as a crime detection instrument, we do not control the 
sequencer itself. There are certainly numerous uses in basic 
science and medicine, including in China. So to try to control 
the export of the item to China would be problematic at best.
    The other type of control we have under the Export 
Administration Regulations is a control over the activities of 
entities that act in a manner that's inconsistent with U.S. 
national security or foreign policy. Certainly human rights 
violations are a concern with regard to U.S. foreign policy. 
And we do have a process related to end-user review. You 
mentioned the public security bureaus. We do have the 
opportunity to review; we are reviewing as a result of the 
information raised to us by this commission.
    We are reviewing whether or not the evidentiary basis is 
there, we're relying on interagency partners to look at whether 
it is appropriate, through the end-user review committee, to 
place these entities on the entity list.
    Senator Rubio. Well, just on the issue of whether or not 
the end user is using it this way, the Department of State is 
seated right next to you, and they just testified publicly how 
this information is being used. So I think we have an 
interagency process right here in this committee. And I hope it 
is taken seriously.
    On the issue of the product itself, virtually any product 
that is sold abroad has a legitimate use. Guns have legitimate 
uses, rockets, and we restrict the sale of those to certain 
people. We don't sell rockets, guns, tear gas, and crowd 
suppressant to a certain group because they have a history of 
oppressing people.
    Is your testimony that you don't have the statutory 
authority to restrict these products based on the way the law 
is written today? Do you need a change in the law to be able to 
restrict that or is it sort of internally a policy 
determination at this time that it isn't wise to restrict the 
sale of these items because they have a broader legitimate use 
in China?
    Mr. Christino. We have the appropriate authority both over 
items and over the activities of entities that receive U.S. 
items. The problematic nature of this challenge is that if you 
were to try and control DNA sequencers exported to China, you 
would have to be able to make a determination--rather, the 
bureau and the department would need to be able to make a 
determination that such controls would be effective and would 
not adversely affect legitimate U.S. business interests in 
terms of selling these for the numerous uses in basic science 
or in medicine. And then you would also have to deal with 
potential diversion concerns over legitimate sales.
    We're looking at controls not just over the DNA sequencers 
but over other items that may be used, to determine if there is 
sufficient information to warrant a control over the item. But 
the interagency discussion which includes various bureaus at 
the State Department is at this point more focused on the 
entities.
    Chairman Rubio. Well, I don't have a problem with 
restricting the entities, but those are easy to evade. In 
China, the Communist Party controls anything. So whoever you 
sell it to can easily transfer it for that use. I know you 
don't make this decision. Therefore, I'm not trying to beat up 
on you personally because you're here to represent the policy 
of the Commerce Department.
    But I do want to say this . . . it sounds like your answer 
was, These companies have legitimate business interests and 
make money in China selling these DNA sequencers in the whole 
country, and most of the things they sell in the country are 
used legitimately. And we don't want to unnecessarily burden 
their ability to make a profit just because a small but 
significant percentage of their sales might be being used in 
this way.
    If that is the direction we're going, I just find that to 
be unacceptable. It's true--they can buy this from other 
countries, and other companies want to sell it to them. I think 
for us it comes down to the purpose of whether or not we want 
companies housed in the United States benefiting from American 
research, from our laws, from our freedom, from the protection 
of our rule of law in this country, to somehow be complicit in 
what is happening here, and in how their technology is being 
used. And the fact that they are making some money in China is 
to my mind not something that should counterbalance that 
concern. Again, I know you don't make the decision, but I hope 
you report it back.
    Ambassador Currie, you're sitting here today. Does the 
State Department believe that DNA sequencers and other 
materials are being used in ways that we find to be a grotesque 
violation of human rights?
    Ambassador Currie. Thank you, Senator Rubio.
    We do believe that the security state in Xinjiang is 
excessive and is perhaps one of the most repressive in the 
world at this time. We acknowledge that the system does include 
thousands of security cameras, including in mosques, facial 
recognition software, obligatory content monitoring apps on 
smartphones, and GPS devices in cars, widespread new police 
outposts, as you noted, and the embedding of Party personnel in 
homes, and the compulsory collection of vast biometric datasets 
on ethnic and religious minorities throughout the region, 
including DNA and blood samples, 3D photos, iris scans, and 
voiceprints.
    We note that Human Rights Watch has documented that many of 
these DNA samples were collected deceptively as part of what 
regional officials called a ``health campaign.'' That is a 
report by Human Rights Watch, not the U.S. Government, but it's 
in my testimony, so I believe that we must find it somewhat 
credible.
    And the surveillance system has spurred experts in general 
security and experts in Xinjiang to label it as one of the most 
intrusive security police states in the world. There are also 
grave concerns that there's an intention to migrate this system 
from Xinjiang out more broadly into the rest of China, as this 
system, the grid system that's in place in Xinjiang, migrated 
first from Tibet into Xinjiang. It started out in Tibet and was 
kind of rolled out as a pilot there, and then built on, scaled 
up, in Xinjiang.
    Chairman Rubio. Okay. My question was whether using DNA 
sequencers in a way that violates human rights--my take on what 
you just answered--and I know it's the--you need to recite the 
policy of the administration. I think your answer was yes. And 
all I ask is, Can the State Department please tell that to the 
Commerce Department so that they----
    Ambassador Currie. We will absolutely engage in interagency 
discussions with the Commerce Department about appropriate uses 
of technology, and----
    Chairman Rubio. Just tell Commerce that DNA sequencers are 
being used to violate human rights in a grotesque way so 
hopefully they can get moving on denying this. I don't care how 
much money Thermo--whatever their name is--Fisher--that 
company, Thermo Fisher Scientific.
    Are you ready?

STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. REPRESENTATIVE FROM 
 NEW JERSEY; COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Cochairman Smith. First of all, thank you, Chairman Rubio, 
for pulling together this extremely important hearing.
    What's happening against the Muslim Uyghurs--we know that 
Rebiya Kadeer's entire family is incarcerated. When she got 
out, came here--she came and testified at one of my hearings, 
and just bowled us all over with her courage, her willingness 
to sacrifice. At that time, at least two of her family were 
incarcerated as a hedge by the Chinese dictatorship to say, You 
say anything, we will hold it against them.
    And now it is--as we all know--as bad as it was during 
World War II, where the Muslim Uyghurs are being discriminated 
against, thrown into prison, tortured and killed in a massive 
way.
    Back in 2006, I chaired a hearing to which I invited 
Google, Cisco, Microsoft and Yahoo about their surveillance. 
But in the case of Cisco, their sale of PoliceNet and other 
means by which the Communist dictatorship could surveil, and 
then apprehend, and then of course what follows then is torture 
and long prison sentences.
    One of the men that Yahoo coughed up was Shi Tao, who you 
all recall--I know you recall it--you're shaking your head. I 
know you recall it well--a wonderful guy, a journalist who 
contacted a New York NGO and said, This is what we're told we 
cannot do when Tiananmen Square's anniversary comes around.
    And for that, he got 10 years. And who gave them that 
information? Yahoo--they gave personally identifiable 
information, which then was used as actionable police state 
information, to not only get him, but then they collect other 
people--or arrest them, I should say. Then they interrogate 
them with torture, and then they cough up other names.
    So we're bearing terrible fruit of inaction for years. And 
as the Chairman said, it's gone far beyond PoliceNet--I am 
saying that, but it has gone far beyond the original tools of 
repression that a legitimate police force can and should use. 
And now it's so far beyond that.
    I introduced a bill called the Global Online Freedom Act. 
One of the titles in that had to do with--just like we do with 
South Africa, prohibiting, proscribing certain police useable 
items that a repressive police state can use to gather up 
religious freedom activists, human rights activists, as in the 
case of the Uyghurs because of their ethnicity, and their 
religion, the Muslim Uyghurs.
    I couldn't get the bill passed. The K Street lobbyists 
came, and they descended upon the Foreign Affairs Committee. 
When we had the markup, I had people on the Democrat side and 
some on the Republican side saying that I can't--I couldn't get 
the bill out of committee.
    Now we've got John Boehner, our former Speaker, joining in 
the chorus of lobbyists for a dictatorship. If he speaks truth 
to power behind closed doors, and more than that, that would be 
great. But if he then comes up here and just promotes the 
bottom line of Beijing, of Xi Jinping, who is now one of the 
rivals for Mao Zedong when it comes to human rights abuse, we 
have a problem.
    So, again, I would ask you again and plead with you, we've 
got to make sure, like we did with South Africa and others in 
the past, make sure all of these items--and when there's a 
dual-use capability that seemingly is benign for a commercial 
use but also has a political or a police application, that we 
go all out to make sure that that is on an export control 
regime.
    So if you could speak to that, because I think we have been 
asleep at the switch. The Obama Administration, now Trump, 
during the Bush Administration, we could not get any traction. 
China has always been treated in a way that I have found 
baffling.
    The people of China are great people. They don't have the 
government they deserve. They have a dictatorship that 
represses them. Why do we enable dictatorship by giving them 
these tools of repression? So if you'd like to respond to that? 
This is the consequence, I think, of gross inaction over the 
course of many years.
    Mr. Christino. Sir, we do control quite a bit of items that 
are used in the way you describe. We control fingerprint 
analyzers, automated fingerprint retrieval systems, voiceprint 
identification, along with the more traditional law enforcement 
items normally used by a police force.
    We also look very carefully at information technology 
items, including computer penetration forensics tools to try to 
ensure that we are appropriately controlling these items so 
they are not used--I should say misused--in the manner that you 
have described.
    We continue to work with our interagency partners, 
primarily the Department of State, specifically the Bureau of 
Human Rights and Labor, the East Asia Pacific Bureau, etc., to 
ensure that we are capturing the right items. And if we cannot 
capture the item, that we are capturing the end use or the 
entities. So we'll continue to do that.
    Ambassador Currie. Thank you, Chairman Smith. And thank you 
again for hosting this, for convening this important and very 
timely hearing today.
    At USUN, we're focused on what we're seeing as the end 
result of the--I think--the policy approach that you outlined 
of believing that China was going to rise peacefully and was 
going to engage in political reform as it opened up 
economically. That clearly has not happened. I think that 
that's not a secret to anyone at this point, that that has not 
been the outcome that those who supported and advocated that 
policy desired.
    So now we are dealing with the consequences of a China that 
has grown rich and powerful and is increasingly authoritarian 
in its behavior both at home and abroad. What we're seeing, 
which is incredibly disturbing for us and which we are trying 
to find ways to combat every day at USUN, goes beyond what we, 
I think, had become accustomed to in terms of defensive 
strategies where China would use its position and various 
bodies to block criticism of it in the Human Rights Council or 
in other places. What we're now seeing is an effort by China to 
actually try to transform the entire normative framework of 
human rights.
    And when I say that, what I'm talking about is substituting 
what we all think of as the normative framework of human 
rights, of rights that attach at the individual level, basic 
God-given human rights--in the parlance of the American way of 
thinking about this, freedom of expression, freedom of 
religion, freedom of thought, freedom of association--to 
transform the whole human rights system into what the Chinese 
characterize as one based on ``win-win'' cooperation or 
mutually beneficial cooperation between states and a system 
that prioritizes the concerns of governments, rather than 
prioritizing their responsibility to respect the human rights 
of their citizens. And what we're seeing at the UN, both in New 
York and across the UN system, is deeply concerning in this 
regard. The Chinese are using all of the tools of state power, 
all of their capabilities, to try to undermine the normative 
framework of human rights. And they're doing it in a way that 
is both blatant, as well as under the radar.
    So we are fighting back against it whenever we can. We are 
trying to block them from putting the language of ``win-win'' 
and mutually beneficial cooperation into resolutions at the UN, 
which they are doing across the board. We are trying to block 
them from using the development system of the UN to undermine 
efforts to promote good governance, anti-corruption, and human 
rights as part of the package of responsible development 
behavior, something that they are doing through a variety of 
means. And we are also fighting to make sure that voices of 
civil society can be heard at the UN, including people like 
Uyghur activist Dolkan Isa, who the Chinese have tried to block 
from participating in UN fora.
    So at USUN, we are, I think, very cognizant of the threat 
that the situation poses and are working very hard on a daily 
basis. Our biggest challenge right now is that we are 
relatively alone in this. And in a situation where you have got 
193 member states, many of whom can be persuaded by some of the 
tools that Senator Rubio mentioned, about the Belt and Road 
Initiative, about the amount, about the kind of relationships 
that the Chinese are building across the developing world, in 
particular, but not just the developing world.
    We are really struggling to gain traction in terms of 
getting other member states to join us in this effort to push 
back on even things as simple as the debt that the Chinese 
system is building, the unsustainable debt levels in 
development that the Chinese are creating with developing 
countries.
    So it is a massive struggle. This administration takes it 
very seriously, and everything from where you heard the White 
House push back on the Chinese political correctness with 
trying to force U.S. businesses to change their websites on 
Taiwan, to what we are doing every day at USUN. We are taking 
these threats seriously. We are looking for every opportunity 
to try to push back on them. And we are very serious about 
standing up for the human rights of the Chinese people, in 
particular, calling more attention to the situation in Xinjiang 
because it is deeply underreported, as Senator Rubio noted.
    Cochairman Smith. I will be very brief because I know my 
time is running out or has run out.
    Ambassador Currie, thank you for your leadership. And Nikki 
Haley, please convey to her that I stand in great respect--I 
think we all do--for all of the work that she has done. She is 
often a lone voice, as our delegation and you have been 
tenacious.
    The redefinition of human rights is exactly what the Soviet 
Union tried to do in the 80s and 90s. They used to say, Oh, 
look America, you have a terrible problem of homelessness. 
Therefore, we have a better situation than you do because 
nobody's on the street. Yeah, they're all in the gulag or in 
the psychiatric hospital.
    But that said, we address our humanitarian needs, but as 
you pointed out, they're not fundamental human rights--and they 
are seeking redefinition.
    Mr. Chairman, I held a series of hearings in my 
subcommittee--that's the Africa, Global Health, Global Human 
Rights Committee--on the influence of Chinese soft power, 
particularly this indebtedness issue, which is putting the 
African countries in huge debt where even more power can be 
exerted by the Chinese. And then they call in those chits in 
the UN, with just what you are finding--us standing alone on 
this.
    But hopefully for the Uyghurs and for the people suffering 
in the autonomous region, they will join us in that. They are 
even trying to influence Europe, amazingly. And they're having 
an impact.
    So thank you for your leadership.
    Chairman Rubio. Senator King.
    Senator King. Well, first I want to thank both Chairman 
Smith and Chairman Rubio for their passion and attention to 
this issue. It's troubling to say the least.
    The first thing I would do, Mr. Chairman, is submit for the 
record a long story that appeared in The Economist on May 31, 
that outlines this problem. I think this is a dramatic 
statement of exactly what we're talking about and the horror of 
it. As I read it, all I could think of was my youthful reading 
of ``1984'' and ``Brave New World.'' It is technology turned on 
its head to enslave people instead of to liberate them.
    I was also recently reading about the period of the 1930s 
and the reluctance of America principally, but other countries, 
to recognize what was going on in Germany. There was an almost 
deliberate blind eye turned to what was being done. And of 
course, it wasn't until a decade later that we realized the 
full horror of the Holocaust. I've often thought of the 
difficulty that that question presents; What if we had known in 
detail, specifically in the 30s, what was going on in Germany? 
What then would our obligations have been?
    It seems to me that we are at a similar moment, only we 
have more information. We know what's going on. We don't know 
the exact details, but we know about reeducation camps, we know 
about--as the Chairman recited--people being forced to change 
their names, violate religious practices, modern-day apartheid. 
We do know about it. So what do we do?
    So, Ambassador, I appreciate your coming, number one, and I 
appreciate the statements that you've made. But it seems to me 
that what we really need is a--it's not as if we have no 
relations with China. We have detailed interconnections, trade, 
culture, many exchanges, ambassadors, the whole deal. What can 
we do? What are the levers that we have? Because I don't want 
somebody reading the history of this period and looking back 30 
years from now or 50 years from now and saying, America 
tolerated a holocaust or something similar. What are the levers 
of power that we have that we can exert in this situation in 
order to try to bring this country, this wonderful country to 
its senses in terms of what they are doing to these people?
    Ambassador, give me a laundry list.
    Ambassador Currie. I wish I had a laundry list. Right now 
what we can do at USUN is help to shine a light on the 
situation. I think that the severity, the scope, and the 
magnitude of this situation have really only become clear--I 
would say--in the past few months. We had been hearing stories 
more or less sporadically that this was happening, but some of 
the research that Senator Rubio cited, the looking at the 
tender offers, and understanding, being able to map those 
things, and then as the stories--the Chinese have done an 
excellent job of attempting to keep this under wraps, of not 
allowing reporters to go into Xinjiang and actually report 
directly on what is happening, including our diplomats. So it 
has been a serious challenge to really get a handle on the 
scope and severity of this.
    So I am not saying that as an excuse that--we are just now 
really starting to understand the scope of it. So we are 
starting to shine a light on it and looking for more 
opportunities to do that. And this hearing is an important one 
today.
    Senator King. But I think developing a laundry list is 
important.
    Ambassador Currie. And we have the tools. The tools are the 
tools in the human rights world. They exist. It's always a 
matter of political will for us about where we choose to use 
them.
    I think today's Ministerial on International Religious 
Freedom where this topic will be discussed--it was mentioned in 
Secretary Pompeo's op-ed yesterday. It was mentioned, and it 
will be mentioned this week during the Ministerial. And I think 
that, for us, part of it at this point is educating, frankly 
speaking, a number of countries that are not as aware as we are 
at this point of what is going on, because when I raised it 
with colleagues at the UN, many of my colleagues, including in 
the Muslim world, have no idea this is even happening.
    Senator King. I think that is an important point because if 
there is anything we have learned in the last 20 years about 
sanctions, for example, they are much more effective if they 
are multilateral, much more effective. And I think a very 
important point is to talk to the rest of the world and say, 
it's nice that they are offering to build you a bridge, but 
understand that it comes with a price and the price may be paid 
by innocent people in this province of China.
    So I think that's an important part, but I hope that you 
will--that the administration will develop a set of options, 
policy options that can begin to not only express disapproval 
or shine a light on the problem, but really have some direct 
impact because this doesn't reflect well on the Chinese people.
    It mars what would otherwise be something that might be 
positive in terms of assisting undeveloped parts of the world. 
But if it's done at the price of having to tolerate this, it's 
certainly not in the interests of the people of China or the 
people of the world.
    Mr. Christino, I think if anything has come through, I 
hope, this morning, it's that we feel very strongly that, to 
the extent of your authority, we have really got to have 
renewed attention to the export of technology that is being 
used to develop what appears now to be the world's most 
advanced police state. I mean, the idea of having people that 
move in, that adopt a family, police stations 200 meters apart, 
thousands if not millions of surveillance cameras, iris scans, 
blood samples taken under false pretenses. I mean, this is 
really the stuff of science fiction, and horrible science 
fiction at that.
    So I don't want it to be business as usual at your office. 
This is a new challenge, as the Ambassador said. It has come 
into focus in the last several months, the last year. So I hope 
your office will renew its attention to this and be much more 
alert to the potential use of this technology. And my view is, 
even if there is a legitimate use for it, if it can be used for 
this purpose, it should be under additional scrutiny if not 
outright sanction by your office.
    Thank you, Mr. Chairman.
    Chairman Rubio. Senator Cotton.
    Senator Cotton. I'll just continue where Senator King left 
off. Even if there is a legitimate use to it, why would we sell 
it to China? Why would we authorize it to be sold to China? I 
mean, they're not France. They're not Sweden. So I don't think 
we should sell it to China regardless, even if there is a 
legitimate use. And if the administration can't do it with 
existing authorities, then perhaps Congress should explore 
giving you more authorities to do so.
    Mr. Christino, I know you have a lot of experience in this 
field. Did we sell crowd control and policing equipment and 
technology to the Soviet Union when it existed?
    Mr. Christino. No, sir.
    Senator Cotton. Why would we sell it to China now since 
China is our number one geopolitical rival going forward in the 
coming decades. They're plainly using this kind of technology 
in Xinjiang to oppress their own people and to build their 
national power in a way to challenge us. I mean, one of the 
reasons China has been able to turn its focus outward onto the 
blue seas and challenge us inside the first island chain and in 
the South China Sea is that they've gained greater control of 
their internal borders, especially in Xinjiang and Tibet.
    I turn now, Ambassador Currie, to you, and something you 
said earlier--I want to just explore a little bit further and 
ask if you could elaborate and talk about the concept of a 
pilot program. Some of these techniques were first piloted in 
Tibet. Now they've been rolled out on a greater and more 
advanced scale in Xinjiang, potentially going to the rest of 
China.
    Could you elaborate, please, on that?
    Ambassador Currie. Certainly, Senator Cotton.
    I think our understanding is that after the 2008 events in 
Lhasa and the protests that took place then across the Tibetan 
Plateau, the Chinese authorities came in with a much more 
aggressive approach to policing and social control in Tibet. 
And they began both with policing, with the closely spaced 
police stations, the intense surveillance, and the control over 
religious institutions and cultural institutions, the massive 
political education, the pressure on state employees from 
teachers to policemen to doctors of Tibetan extraction who were 
forced to take political education classes, much more intensive 
management of monasteries in Tibet.
    They fused that approach with what we might call community-
based policing if it were being done for a proper purpose, but 
which in this case is really just community-based oppression--
they fused that with a technological edge in Xinjiang and 
doubled down on it. And they added some very particular aspects 
to it in terms of the legal restrictions that they've passed 
into regulations and have made more of a--put it under law, 
which is something that the Chinese like to do to kind of 
create a thin veneer of legality over the forms of oppression 
that they're using against these minority communities.
    Senator Cotton. Thank you for that. I suspect that is what 
is going to happen. It will be rolled out substantially 
throughout the country.
    Also another issue that was touched upon briefly earlier, 
the Belt and Road Initiative--pretty tall mountains down there 
in Tibet. It is hard to get a road through there. So the road 
in the Belt and Road Initiative, presumably is going primarily 
through Xinjiang province into Central Asia and then perhaps 
all the way into Europe. How closely connected is the 
oppression that we see in Xinjiang province to that Belt and 
Road Initiative, which of course is a direct challenge to the 
United States' position as the world's leading economy and the 
global military superpower?
    Ambassador Currie. Security along the belt and road is a 
major human rights challenge, not just inside China's borders 
but across them. They definitely are insistent on having a high 
degree of security through key corridors, and Xinjiang is one 
of those key corridors.
    Part of it--it goes beyond, also, the repression directed 
at the Muslim minority communities in Xinjiang. And what we're 
seeing in addition to the repression directed at those 
communities is the continued incentivization of in-migration 
and other activities to encourage the growth of the non-Uyghur, 
non-Kazakh, non-Muslim population.
    Senator Cotton. By in-migration--to call a spade a spade--
you mean, essentially, colonization, right?
    Ambassador Currie. That is--it could be characterized----
    Senator Cotton. The data I have here in front of me says 
that in 1949, Xinjiang had 7 percent Han Chinese. Today it's up 
to 40 percent.
    Ambassador Currie. Some experts have characterized it as 
colonization, yes. What we've seen there is also that the 
Chinese residents of Xinjiang tend to dominate the businesses. 
They get the state contracts, and they are involved in the 
actual infrastructure development that is linked to the Belt 
and Road.
    Senator Cotton. Again, to call a spade a spade, the Chinese 
there are dominating the businesses. They are dominating the 
businesses because the Chinese Communist Party is empowering 
them to have those businesses and disempowering all the native-
born Muslim Uyghurs or Kazakhs, or other minorities in 
Xinjiang?
    Ambassador Currie. Yes.
    Senator Cotton. One final question. We talked earlier about 
the loss of a market for American companies and things like 
crowd control or policing technique, or more cutting-edge 
technology that can be used for those things like DNA mapping 
and facial recognition technology. One common argument you hear 
from American companies is, Well, if we do not sell it to them, 
someone is going to sell it to them, right? It reminds me of 
the old line that a communist's definition of a capitalist is a 
man who will sell us the rope with which we hang him.
    But I just want to ask you, who are the countries whose 
companies could pick up that business? And maybe, Mr. 
Christino, this is better directed to you as well. If we stop 
selling this kind of technology to China, in which countries 
around the world are the companies located that would pick up 
that business from American companies?
    Mr. Christino. Well, with regard specifically to the DNA 
sequencers that were mentioned prominently earlier during the 
hearing, they're made essentially all over the world. It's 
relatively simple technology. It's not very cutting-edge 
technology. It has been around for at least 30 years. Some of 
the main manufacturers are actually in China itself. And you 
don't even need the item, the sequencer, in many cases. As we 
see on TV all the time, there's a great deal of advertising for 
DNA analysis. It's simply a swab and send. So there's plenty of 
opportunity for the Chinese security services to continue to do 
what they're doing without U.S. items.
    Senator Cotton. Ambassador Currie, do you have any response 
to that one?
    Ambassador Currie. I would agree with my colleague that the 
Chinese, not just in this area of technology, but they, as part 
of the Made in China 2025 Drive and 2050 Drive, they have 
definitely--the goal there is to make China technologically 
self-sufficient so that even if we do put export controls on 
all manner of things, then they would be able to produce them 
domestically without having to rely on external sources for 
items such as this.
    Senator Cotton. OK. Thank you both.
    Chairman Rubio. I have just two quick comments and a quick 
question. Then I know Congressman Smith does as well before we 
turn to our second panel. We want to thank you both for being 
here.
    Your answer to Senator Cotton's last question almost sounds 
like, They're going to do it anyway, so we might as well allow 
our companies to make some money on it. And I'm not saying 
that's what your intention is in representing it that way, but 
that's sort of the logical conclusion of it. This technology is 
widely available. This is not going to be able to stop them 
from doing it. And what I hope you'll take back to Commerce is, 
I don't believe that any of us who are calling for this 
technology, like the DNA sequencer, to be prohibited believe 
that doing so will prohibit them--or stop them from doing this. 
We just don't want American companies to be participants in it.
    And I think that's the bigger point for us as a nation. You 
can buy crowd control equipment. China will sell you crowd 
control equipment. They'll sell you anything. They don't care 
about your human rights record, democracy, anything like that. 
If you have the cash, they'll sell it to you. That does not 
mean that we go--we still deny the sale of certain equipment. 
And it brings to light another point, and that is our laws have 
to keep pace with our technology. What is used to control 
crowds today is different from what it may have been 10, 15, 20 
years ago. And that includes technological advances.
    To that point--did you want to add something on that point?
    Senator King. Well I just wanted to point out that this is 
exactly the argument that was made in Britain to justify the 
sale of Rolls Royce engines to the Luftwaffe in 1935. It was a 
bad argument then, and it's a bad argument now because the 
issue you are talking about is complicity. I don't want to be 
complicit in this.
    Chairman Rubio. Agreed.
    And talking about the other thing that I think this brings 
to light is, if you read through the regs and how they describe 
crowd control and suppression, it's all 20th century technology 
and it's still used. But in the 21st century, technology 
increasingly plays a role.
    I'll give you one example; the use of intense security 
measures to surveillance technology. We know, for example, the 
Chinese are now using in a particular region, in specific, 
facial recognition cameras in neighborhoods, on roads, and in 
train stations.
    It appears focused on using much of the surveillance and 
data collected to monitor and repress Uyghurs. In fact, the 
authorities reportedly integrate a lot of this surveillance. So 
they're taking data from all sorts of things--the computer, 
smartphones, closed circuit cameras, license plates, ID cards, 
individual family planning and banking records, information on 
their international travel--they're taking all of this 
information and they're running it through something that's 
called the Integrated Joint Operations Platform. And they're 
using that data--all of that data--to identify people that they 
think should be subject to investigation and potential 
detention.
    In essence, how they're defining who to put in these camps 
is the process of an algorithm that's looking at all of this 
data they're collecting on people and deciding from it who they 
should be detaining. And here's why I point that out. A key 
component of that in the 21st century is going to be artificial 
intelligence, the ability to learn from the gathering of data 
the way a human would and improve it each and every time. And I 
raise that only because there's a tremendous irony in this room 
here today. That picture that we have of a camp and how it grew 
comes from Google Earth.
    Google recently dropped out of a contract with the 
Department of Defense, on Project Maven, artificial 
intelligence--because its employees do not want to be involved 
with the American Government and the DoD working on the use of 
artificial intelligence to potentially harm people.
    At the same time, Google has opened up an AI China Center. 
And basically anything you do in China that's technological, if 
you think you're going to constrain it to just the private 
sector, you're crazy. All of it will be shared with the 
military and with the repressive forces that are doing this. 
And Google has no excuse. They know that this is happening 
because they've got pictures of it. That's Google Earth.
    So that's just one more example of the hypocrisy of an 
American company that knows this is happening, doesn't want to 
give AI technology to the military because God forbid we may 
use it one day to target a terrorist or someone who wants to 
harm America, but has no problem opening up a center of AI in 
China knowing full well that anything you do in China--if it's 
a benefit to the military, they're going to use it. If it's a 
benefit to their security services, they're going to use it.
    And my last question--this is a question. We've raised the 
issue of Global Magnitsky sanctions; the purpose of Global 
Magnitsky sanctions was to be able to identify an individual 
doing horrible things and be able to impose sanctions upon 
them. We clearly know horrible things are happening here to the 
Uyghurs in their area. And we know that there are individuals 
who are at least making the decision, and most certainly 
individuals that are applying those decisions.
    What is happening within State now? Is there consideration 
being made? Is there deliberation? Is there talk? What are the 
chances of being able to apply Global Magnitsky sanctions to 
individuals that we know are in charge of these regions and, at 
the highest levels, have to be held responsible for what's 
happening?
    Ambassador Currie. Well as you know, Global Magnitsky is a 
rolling determination dataset where we are constantly looking 
at individuals who are involved with either serious corruption 
issues or gross human rights abuses. It's an interagency 
process. It's not the State Department alone that manages that 
process. In fact, the final determination and the final check 
on that is actually with the Treasury Department. But it is an 
interagency process, and the State Department does play an 
important role in identifying targets and helping to move them 
through the process, build the data packages around Global 
Magnitsky.
    I cannot speak to specific individuals that may be being 
chosen or being looked at for sanctions, but what I can say is 
that we do see the Global Magnitsky sanctions as an important 
tool to help identify abusers and bring them--and use the 
ability of the United States to sanction those individuals, 
limit their access to the U.S. financial system and block them 
from being able to--in some cases, even seize assets that they 
may have in the U.S. financial system.
    If there are suggestions that the Commission has for 
individuals that the Department should be looking at, I would 
encourage you to forward those to the Bureau of Democracy, 
Human Rights, and Labor, because they generally start the 
process rolling with determinations, and I'd be happy to take 
anything back that you have.
    Chairman Rubio. Well, you can count on--we most certainly 
have ideas about individuals and it's probably not a complete 
list. We're open to adding more people as this continues. My 
only takeaway is, as you go back, and however this form reaches 
the decision-makers in the interagency, to the extent that the 
Department of State is involved in the interagency, we just--I 
can't speak for everyone else, but I think there'd be a 
consensus on the Commission and across Congress that if ever 
there was a model case for how we intended Global Magnitsky to 
be used as a tool, this would be it . . . because there is most 
clearly abuse happening.
    Wherever there is abuse, there are abusers. And in the case 
of China, those abusers--if they're high enough in government--
are almost guaranteed to not just have U.S. visas, but either 
they or their families have some access to either the U.S. 
financial system, our universities, and are enjoying--that's 
just the way it works for high-ranking individuals. They like 
to travel the world, and they like to spend money in the U.S. 
So if ever there was an example of where Magnitsky could be 
powerful in making a statement about where we stand on this 
issue, we believe this is one of them, and we will most 
certainly continue to push for it and offer suggestions about 
individuals.
    Congressman Smith, you have the final questions.
    Cochairman Smith. Thank you very much, Mr. Chairman.
    Just let me add my strong endorsement to what you just said 
about Global Magnitsky. I am the author of the Belarus 
Democracy Act of 2004--great pushback when we did it. 
Lukashenko, the dictator in Belarus, was sanctioned along with 
about 200 other people. I went there twice, went to Minsk. The 
first time he called me ``public enemy number one,'' but one by 
one every political prisoner got out of prison. And it applied 
not just to him, but to his family and to other families of his 
group that were committing gross human rights violations.
    So it does work. The Global Magnitsky Act, and the 
Magnitsky Act itself, targeted toward Russia, is a tool of 
surpassing capability.
    I hope we would do a data call to our embassy in Beijing, 
to our Ambassador Branstad and say, Give us the names--it's got 
to really come--if they're not going to initiate it, and they 
probably won't, it will come from Washington, I would hope, and 
say, Who is responsible for this horrific carnage being imposed 
upon the Muslim Uyghurs?
    Rebiya Kadeer, who is here, her courage is--she should win 
the Nobel Peace Prize for her courage. As a matter of fact, in 
the past, many of us have asked that that happen, and she 
should be present as well.
    I cannot tell you how concerned all of us are. We've got 
six Radio Free Asia families who are missing or are 
incarcerated as part of this massive World War II-type roundup. 
This is now similar to what the Nazis did in terms of the 
massiveness of gathering people for torture and the like.
    So the Magnitsky Act is just sitting there like low-hanging 
fruit, tools that absolutely have to be deployed. And make up a 
list, like I said--the second time I met with Lukashenko, he 
was all sweetness and light. He's still a dictator. But all the 
political prisoners have been released, to the best of our 
knowledge.
    On another related issue--in 2000, I wrote the Admiral 
Nance/Meg Donovan Foreign Relations Act. One of the provisions 
we put in there said that anyone who is complicit with forced 
abortion or forced sterilization, which during the Nuremburg 
War Crimes Tribunal was properly construed to be a crime 
against humanity for its Nazi usage against Poles and others; 
it is just as much a crime against humanity today.
    We know that China itself is missing 62 million women, 
girls, who have been eviscerated from their population by sex 
selection abortion. We know that it's been used as a genocidal 
tool against the Tibetans and against the Uyghurs. Nobody ever 
seems to talk about it except the Chairman and me, perhaps a 
small number of others. It is like the topic that you don't 
bring up because the choice community will look askance at 
this. These women are being horribly and forcibly aborted. 
Sometimes they bring--and it is being used as a tool of 
genocide to eliminate the Muslim Uyghurs in that country.
    You have an additional tool sitting there since 2000. It 
was not used by the Obama administration. I brought it up over 
and over again in hearings. I said you may disagree with me on 
the right to life and the fact that unborn children ought to be 
protected from the violence of abortion, but here we are 
talking about forced abortion. Can we not even have agreement 
there to try to protect people from this violence that is being 
imposed upon them?
    So you have another tool I would ask you to revisit, 
especially as it relates to the Muslim Uyghurs--because they 
are using it. I intervened in one case, brought to us by some 
good friends of a woman who had been brought in with about 25 
to 30 cadres, family planning cadres, police escorts, to have 
her Muslim child aborted. I talked to the ambassador here--to 
China--talked to our ambassador, our U.S. Ambassador, and that 
one child got a reprieve and was saved. But one among millions 
being slaughtered.
    So please look at the Admiral Nance/Meg Donovan provision 
to see if that could be brought out and used, get the dust off 
of it because I think it'll make a difference. And, again, like 
the Chairman said, the Magnitsky Act . . . you get a list of a 
couple of hundred--to start off with--names, and then they 
cannot come here. They cannot send their kids to NYU, which has 
a--I spoke at NYU a couple of years ago on human rights in 
Shanghai. Let's get it all out there. Okay, you're done. Your 
families don't come here because of your egregious violations 
of human rights.
    So please, Magnitsky--this is a textbook case of where it 
should be utilized. And I implore you, and again, the Chairman, 
I thank you for again pulling together this extremely important 
hearing.
    And, again, I do thank you, Ambassador, both of you, for 
your leadership at the UN. You've been extraordinary despite 
what the Human Rights Council does, which unfortunately majors 
in hypocrisy, focuses on Israel to the exclusion of the real 
human rights abuses, and Nikki Haley has called that out so 
courageously. And we thank her for that.
    Chairman Rubio. Thank you.
    And we have a second panel we want to get to as quickly as 
possible because I know Senator King needs to go. I know 
Congressman Smith has votes. But Senator Daines is here and I 
know he had a few questions for this panel before we turn it 
over.
    Would our next panelists start getting ready because we are 
going to jump into it pretty quick?
    Senator Daines. Thank you, Chairman Rubio and Chairman 
Smith. I thank you for holding this hearing, and I want to 
thank the witnesses for coming here today.
    I spent more than half a decade in China in the private 
sector. In fact, I had two children born in Hong Kong. I lived 
in Guangzhou. I've led congressional visits to China every year 
since I've been in the United States Senate. I have had the 
opportunity to travel across the country in Xinjiang. I have 
been in Urumqi as well. I've seen the prominent Uyghur Muslim 
populations. I have been in Tibet and seen the Buddhist monks. 
I just recently was in Dandong along the North Korean border. 
This has allowed me to see firsthand the pervasive censorship 
and the challenges the Chinese people face, as well as the 
efforts made by the Chinese government to extend their 
influence beyond their borders.
    As your testimonies suggest, the State Department Human 
Rights Report and numerous others indicate the situation in 
Xinjiang is dire for its Uyghur population. Whether it's 
pervasive surveillance, the destruction of thousands of 
mosques, or the detention of hundreds of thousands in so-called 
``reeducation camps,'' as well as indefinite detentions, it's 
critically important that we, as a nation founded on freedom 
and the rule of law, bring our influence to bear to advance 
human rights in China and around the world.
    Ambassador Currie, what do you see as China's endgame as it 
relates to the persecution and the repression of its Uyghur 
population? Is this cultural, economic, religious, or some 
other combination?
    Ambassador Currie. Thank you for that question.
    We would say that it's all of those things. It is a 
combination of those elements with an additional aspect of 
political control. What we see is an effort to sinicize 
religion and to bring--the Chinese Communist Party feels the 
need to control anything that is not under its immediate 
control. So it does put a lot of constraints on all religious 
activity in China. And because of the global nature, in 
particular of Islam and Christianity as well, those two 
religions tend to come in for particular scrutiny and 
particular suspicion from the authorities, and for a much more 
coercive and much more restrictive approach.
    So I believe that in Xinjiang and in the case of the Uyghur 
population, in particular, there is an absolute--the State 
Department sees an effort to sinicize religion and to bring the 
practices of Uyghur Muslims into line with a level of 
religiosity that the Party finds acceptable. And bearing in 
mind that the Party is itself an atheist entity, we can surmise 
that that is a very low level of religiosity, and one that is 
very limited in terms of being--limited in terms of its 
international relations and connections outside of China.
    Senator Daines. Ambassador Currie, are there any particular 
tools or technologies that would be helpful for the U.S. 
Government or NGOs to support to assist those persecuted 
populations?
    Ambassador Currie. The tools that the United States is 
using in terms of Radio Free Asia and the Voice of America, 
getting the truth in to people, giving--and then making sure 
that we are also reporting on the situation there, are 
particularly important. Information is obviously critical here.
    Our ability to understand what is going on in Xinjiang is 
limited by the efforts of the Chinese government to cover up 
and mask what they're doing. So the more that we can use 
information technology, both to inform our own population and 
our allies and other countries about what's happening as well 
as to make the people of China aware of what is happening in 
other parts of the country as well as the concerns that are 
taking place outside of China regarding the treatment of ethnic 
minorities and that these practices are not consistent with 
respect for international human rights.
    I believe that those are the things that the U.S. 
Government can use to try to address the problem in terms of 
technology. Beyond that, I think that we are--a lot of it is 
about old-fashioned diplomacy and doing our jobs better of 
educating our colleagues at the UN, for instance, about the 
scope of what's going on and just trying to work and grow the 
coalition of countries that are concerned around this issue.
    Senator Daines. Yes, I remain very concerned since my 
visits out to western China a couple of years ago, the 
thousands of mosques that have been demolished. And whether 
it's the Muslim people, Christian people, the level of 
persecution--by all accounts, all reports we're receiving 
here--is reaching levels that are virtually unprecedented in 
modern history in China.
    It is extending here to the United States, hearing reports 
from Chinese students who are being called by professors back 
in China saying, Do not associate and go to faith-based 
activities. This is something that we haven't seen, and I 
remain very, very concerned.
    Thank you, Mr. Chairman.
    Chairman Rubio. Thank you.
    Thank you both for being here. Ambassador Currie, thank you 
for making the trip. Thank you, Mr. Christino as well. We 
appreciate it. We are grateful. This was very insightful. Thank 
you.
    Our next panel will come forward. And as you guys get 
positioned, Members will fluctuate in and out. Congressman 
Smith had to leave. The House has votes. Members here have 
meetings and different activities.
    We certainly don't want to curtail your testimony. It is 
important to hear your stories. Know that your full testimony 
is going to be in the record.
    We are probably going to have a hard stop in this meeting 
at 12:10 or 12:15. So the less--the shorter you can get those 
statements, the more time we can have to engage with you on 
some details that I think will be enlightening for the 
Commission and for our record.
    [Pause.]
    Chairman Rubio. All right. Okay.
    Thank you all for being here. Ms. Hoja, we will begin with 
you and your testimony. Thank you for being here. I have read 
your full statement. It is very compelling. We want to hear 
more from you today and I look forward to engaging with you. 
Thank you for being here.

 STATEMENT OF GULCHEHRA HOJA, UYGHUR SERVICE JOURNALIST, RADIO 
                           FREE ASIA

    Ms. Hoja. Thank you. As-Salaam-Alaikum. Mr. Chairman, Mr. 
Cochairman, and Members of the Commission, it's my privilege to 
participate in today's hearing on a topic that deeply affects 
me personally and professionally.
    My name is Gulchehra Hoja. I am a journalist with Radio 
Free Asia's Uyghur Language Service, and I am a U.S. citizen. 
Given the time, I will not read my full statement, but share my 
story.
    I grew up in Urumqi, the capital of the Uyghur region in 
China, where I began my career in broadcast journalism before 
coming to the United States in 2001 to work for Radio Free 
Asia. It was a great sacrifice to leave my homeland. I left 
behind a successful career as a television journalist. I also 
left my home, my parents, my family, and my friends. But coming 
here guaranteed me freedom--something that could never be 
realized in China. Being part of Radio Free Asia--which reports 
on the true daily news happening in the Uyghur region--was the 
dream of a lifetime.
    As I testify before you today, it grieves me no end to say 
that my parents remain under threat, and more than two dozen of 
my relatives in China are missing--almost certainly held in 
what are called reeducation camps run by the Chinese 
government.
    I first heard that my brother Kaisar Keyum was detained at 
the end of September last year. Police had taken him when he 
was driving my mother to a doctor's appointment, leaving her 
alone in the car without any explanation. She waited for her 
son who would never return. Kaisar was being held in one of the 
so-called reeducation centers in Urumqi. We have not seen him 
since.
    In February, my parents, both elderly and suffering from 
life-threatening ailments, went missing. Not being able to talk 
with my mother and father, or to learn how they were doing, was 
almost too much to bear. I tried contacting other family but 
could not reach them. And I learned in February that my aunts, 
cousins, their children--more than 20 people had been swept up 
by authorities on the same day. No one has confirmed where they 
are being held, but I strongly suspect they are in the camps, 
which sources say hold more than 1 million Uyghurs in extremely 
poor conditions.
    My parents were held in a medical facility in the detention 
camps. They were allowed to leave in March--maybe because of 
their poor health. Authorities have questioned my parents about 
me, where I am, and my work for an organization they claim is 
``anti-China.''
    Many of my Uyghur colleagues at the RFA share the same 
situation. Their families are also missing, detained and jailed 
after receiving threats about their work at RFA. I hope and 
pray for my family to be let go and released, but I know even 
if that happens, they will still live under constant threat. 
Despite these threats, I know, and my colleagues know, that we 
must continue because of the important role we have as a source 
of truth for Uyghur people.
    I came to the United States to realize a dream, a dream of 
being able to tell the truth without fear. It may be difficult, 
but I will keep trying and I will never give up.
    Thank you so much.
    Chairman Rubio. Thank you for your testimony.
    [The prepared statement of Gulchehra Hoja appears in the 
Appendix.]
    Chairman Rubio. Professor Thum.
    Mr. Thum. Thank you to the Chairs and to the committee for 
organizing this incredibly important hearing.

STATEMENT OF RIAN THUM, ASSOCIATE PROFESSOR, LOYOLA UNIVERSITY 
                          NEW ORLEANS

    I would like to submit my written testimony for the record 
and just emphasize a few interpretive points here because we 
have a lot of the data on the table already.
    The first point I'd like to make is that this is an 
emergency that is developing as we speak. Those numbers of 
several hundred thousand to over a million Uyghurs, 5 to 10 
percent of the Uyghur population disappearing into these 
internment camps, are based on estimates from January, data 
that came out in January about what happened in the previous 
year. We have had another six months. People have continued to 
disappear and very few people, usually sick people, have been 
released.
    We see new camps being built in the satellite imagery and 
we have new advertisements from the Xinjiang authorities asking 
for construction companies to build additional camps. The last 
one to appear is about a 400,000-square-foot facility that will 
probably come on line sometime between September and December.
    This enormous and growing scale is important not just in an 
absolute sense, where we have the feeling that maybe if it 
crosses a big enough number the world will care, but also as a 
proportion of the number of community members who disappear. 
This is something you can see on the streets in southern 
Xinjiang, in the closed buildings, the closed shops, the closed 
houses, people who've disappeared. You can see it in one county 
in Kashgar where 18 orphanages have been built--according to a 
Financial Times report--in the last year alone to house the 
children of those who have been sent to the detention camps.
    My second point that I want to make is about the goals of 
these camps, which is something that was asked about earlier. 
These camps serve multiple goals. They serve the explicit 
goal--which many Chinese officials seem to really believe in--
of changing the way people think through force, of purifying 
them of supposedly bad ideas and inculcating love for the Party 
and for Xi Jinping. They also serve to remove certain 
demographics from the population, especially 20- to 40-year-
olds, which police have explicitly targeted. And, of course, 
they serve as the background disciplinary threat that upholds 
the totalitarian micromanagement of Uyghurs' everyday 
activities and cultural expression.
    But the frightening thing is that what we know from history 
is that when you get large detention systems that are operating 
in legal gray zones, or in this case perhaps even an entirely 
extra-legal zone, there is a lot of room for improvisation on 
the part of those who are running those camps. So the most 
frightening purpose is the one that hasn't occurred yet. And 
while right now torture and deaths in the camp seem to be 
happening at pretty low levels, that can change. In fact, I 
don't think we can rule out the possibility of mass murder.
    The third point I want to make--and I will do it briefly--
is that the camps are not the only problem. Although I have 
emphasized it here because they are easy to summarize, if you 
take them out of the picture, we're still looking at one of the 
most oppressive police states in the world with--as Senator 
Rubio mentioned--a system of racism very similar to apartheid.
    My last major point I want to make is about the deeper 
causes of this. This is a colonial settler operation. And it 
is--contrary to some opinions--not explicitly about religion 
per se.
    The Chinese Communist Party, despite being avowedly 
atheist, has a great deal of tolerance for what they see as 
Chinese religions being practiced by ethnic Chinese. When it 
comes to a foreign religion or a religion seen as Chinese, like 
Buddhism, practiced by non-Chinese, like Tibetans, that story 
changes. And it becomes even more intense when it's Islam 
because the Chinese Communist Party over the last 20 years or 
so has adopted American and European discourses of Islamophobia 
which they picked up largely through cooperation with the U.S. 
global war on terror.
    Because of that, this is a deeply entrenched worldview of 
Chinese officials behind this, and I do not think, for that 
reason, that we can convince Chinese officials to change their 
path based on data about how it will improve the internal 
situation. I think instead--they think this is working. So we 
need to make this not a domestic issue, but a global issue.
    And I see that I am out of time, so I will end there.
    Chairman Rubio. Thank you.
    [The prepared statement of Professor Rian Thum appears in 
the Appendix.]
    Chairman Rubio. Ms. Batke.

   STATEMENT OF JESSICA BATKE, SENIOR EDITOR, CHINAFILE, AND 
       FORMER RESEARCH ANALYST AT THE DEPARTMENT OF STATE

    Ms. Batke. Chairman Rubio, Chairman Smith, and 
distinguished Members of the Commission, thank you for inviting 
me to speak today.
    I am here in a personal capacity, so I am only representing 
myself. Others have very ably already discussed what is 
happening in Xinjiang, so I won't use my time on that. Instead, 
first I'd like to talk a little bit about terminology. I 
believe that if we are to treat what is happening in Xinjiang 
with the seriousness and alarm that it merits, we first need to 
accurately label what it is we are witnessing.
    Official Chinese sources refer to these as ``transformation 
through education centers'' or ``counter-extremism centers.'' 
And outside China, they are frequently called ``reeducation 
camps.''
    But from what we've heard today, we know these are somewhat 
euphemistic characterizations and they do not clearly and 
precisely define what it is we are witnessing. Some observers 
have called them concentration camps based on a definition of 
the state--for reasons of state security, targeting particular 
ethnic and religious minorities and confining them into certain 
spaces. Other people have wondered whether these camps--because 
they are interning religious and ethnic minorities--could 
presage something much worse, like ethnic cleansing.
    And while I am not an expert in international law and I 
don't feel I have standing to offer the legal term of art which 
most accurately defines what we're seeing, I think the U.S. 
Government and the international community, in general, needs 
to think very hard about what is happening in these camps and 
what we should call them, and whether they are an early warning 
sign of something much worse to come.
    Turning to the Chinese leadership--despite a general lack 
of insight into Chinese leadership politics, Xinjiang Party 
Secretary Chen Quanguo's role in this is unusually clear. His 
tenure coincides not only with the large-scale use of these 
camps, but as you noted, with the building of thousands of 
convenience police stations, with a massive increase in 
security personnel hiring and overall security spending, and as 
we know now, a massive increase in arrests as well.
    And this pattern of securitization, as was previously 
mentioned, echoes very clearly Chen Quanguo's security policies 
in another ethnic minority region in China--Tibet--when he was 
Party Secretary there from 2011 to 2016. But though Chen has 
been directly responsible for overseeing these policies, 
neither Chen nor the policies themselves are sui generis. They 
clearly fit into a larger policy trend of criminalization of 
ethnic and religious identity, and that traces from central-
level guidance, at least from 2014 if not earlier, down through 
regional regulations and local implementation.
    So what is the impact beyond Xinjiang? Domestically, 
surveillance capabilities and restrictive measures could be 
employed, and indeed, by some accounts they are already being 
employed, against other ethnic or religious minorities in 
China.
    Internationally, as we've discussed, Uyghurs in exile are 
not only surveilled, but they can be coerced into reporting on 
fellow Uyghurs back to Chinese state security authorities. 
Other governments have assisted China in forcibly repatriating 
ethnic minorities back to Xinjiang.
    And finally, there is the issue of Chinese government 
pressure, even indirectly, often encouraging self-censorship 
among those of us who are here working and writing on China.
    So I am going to make a few policy recommendations. It is a 
mistake to think that staying silent on human rights in China 
is a neutral act. Instead, every instance of silence just 
resets Beijing's expectations and it raises the psychic cost of 
reinjecting human rights back into the conversation later. 
Beijing still does care about its international reputation, 
meaning that both public and diplomatic pressure can be 
effective tools in encouraging change.
    My full recommendations are in my written statement, but 
I'll just highlight a few of them here:

     First, to maintain a clear, consistent, and full-throated 
public defense of human rights and religious freedom in 
Xinjiang in addition to direct diplomatic engagement.
     To work with like-minded countries, particularly Muslim-
majority countries, to coordinate an international response to 
the situation in Xinjiang and offer support to PRC citizens who 
have fled Xinjiang, whether here in the United States or 
elsewhere around the globe.
     To limit private companies' ability to provide training 
or equipment to Chinese state security agencies, and the 
Chair's recent letter to Secretary Ross is very helpful in this 
regard.
     And finally, to sanction relevant Chinese officials under 
the Global Magnitsky Human Rights Accountability Act. Any 
sanctions package should include Xinjiang Party Secretary Chen 
Quanguo. Sanctioning a sitting Politburo member who is one of 
the top 25 leaders of the Chinese Communist Party in China 
would clearly convey the United States' unequivocal 
condemnation of these camps. There is a list of additional 
leaders for your consideration in my written statement.
    Thank you for your time. I welcome your questions.
    Chairman Rubio. Thank you.
    [The prepared statement of Ms. Jessica Batke appears in the 
Appendix.]
    Chairman Rubio. Thank you all. Your testimony, while brief, 
has really gotten to the point.
    I want to start with the first one. You know, let me just 
make sort of an editorial comment at the front end. I know 
there's a lot going on up here. Every morning brings news, 
depending on what's going on on Twitter--statements, press, 
whatever it might be, but--and there is coverage here. There 
are people. There are some cameras and some journalists and 
others who might watch later.
    What we've heard described here today has both deep 
domestic and international implications of epic proportions. I 
know of few, if any, humanitarian outrages in the world that 
reach the level of what we've heard here described, and few in 
modern history that reach this level. And I daresay if this was 
happening in virtually any other part of the world, there'd be 
an incredible amount of outrage and coverage. And while I'm 
grateful to the journalists who are covering this today and 
those that may write about it, I am disappointed. Frankly, I am 
disappointed that there isn't more interest, that there isn't 
more coverage. This is horrifying. It certainly is 
significantly more important for the future of the world and 
the 21st century.
    You have a country that is in a full-scale effort to not 
just catch the United States but supplant us as the world's 
premier economic, military, geopolitical, and technological 
power. And history has taught us that the most powerful country 
in the world in any given era shapes that era, shapes the 
global norms. It shapes the way the world looks, feels, and 
acts.
    I deeply believe that America's rise, and particularly 
since the end of the Second World War, has led to the spread of 
concepts about liberty, freedom, democracy, human rights, and 
economic opportunity, and helped shape the post-World War II 
era. And so we have to fear that in a world that is shaped by a 
country--if that is what it reaches--that does this to their 
own people, you can only imagine what they would be willing to 
support, tolerate, and/or promote if they ever reach the same 
status.
    So I think this should inform our relationship and the 
urgency of all of our tasks with regard to our relationship 
with China. But focusing on this one in particular for a 
moment, let me first address those--and this is going to deal 
with your story, Ms. Hoja--of those who say to us--and I've had 
people tell me this--Human rights is important, but we have to 
be pragmatic and we can't raise it in every forum, can't talk 
about it all the time, and at the end of the day there are 
horrible things happening all over the world. We cannot tell 
other countries what to do all the time. We need to be focused 
on America and Americans.
    Your story is about America and Americans. You are a United 
States citizen. You work for Radio Free Asia. And you have 
testified here today that your brother, your elderly and infirm 
parents have been detained, that over 20 of your relatives, 
including aunts, cousins, children, have been detained.
    You have also testified here today, I believe in your 
written testimony--you may have said it verbally as well--that 
you know of other colleagues that have experienced the same. So 
here we have the testimony of a United States citizen working 
in a journalistic capacity whose family in another country has 
been harassed, detained, in some cases without any contact with 
their families, not knowing exactly what's going on, because 
they don't like what you're saying in the United States--in the 
United States. A United States citizen's family is being 
detained, harassed, and harmed in another country as an effort 
to silence you.
    And it is a testament to your bravery and courage that you 
have not been silenced and that you appear here today. I wonder 
how many have been silenced, and how many have chosen not to 
speak. And who can blame them? Who wants to put their family 
through this?
    You don't have to name names, but I'm interested in you 
sharing with us for the record whether, in fact, your story is 
an isolated one, or are there, in fact, more people who find 
themselves in the circumstances you are in. Again, I will leave 
it up to them to identify who they are and so forth, but is 
yours the only story, or are other people going through the 
exact same thing you are facing right now, other U.S. citizens?
    Ms. Hoja. Of course, there are--the Chinese government 
right now puts people in reeducation camps who have a friend or 
family members outside of China. They feel they will influence 
them. That is why. I don't know the number, but I believe 
everyone, every Uyghur has somebody in the family or friends in 
the camps right now. You can ask any Uyghur, any, including my 
five other colleagues in our office.
    And Rebiya Kadeer is here. Her sons, daughters, even 
grandchildren are locked up. She doesn't know where they are, 
how they are. And we recently confirmed Dolkan Isa's mother 
passed away in the reeducation camps.
    So I wonder what evidence we have to prove again and again. 
So we've been trying to cover this darkness, the issues, for 
more than one year because the Chinese government, this Chen 
Quanguo, is using this policy harshly from the beginning of 
last year. But we have been--for example, for 17 years, I've 
been releasing every day, similar situations, similar human 
rights issues, abuses by the Chinese, but unfortunately, we are 
the only source. Radio Free Asia is the only voice to talk 
about ourselves. So is that enough? We don't know--because I'm 
still here. I'm raising my voice because we don't have a 
choice. We don't have any other people to talk. So we are the 
hope. So I have to stand up. I cannot give up.
    Thank you, Chairman.
    Chairman Rubio. I ask you this, and I don't know if you 
even know the answer. You may not, and it does not mean there 
are not any people in these circumstances, but putting 
ourselves in that position, I think few people would have the 
courage that you have exhibited and the willingness to continue 
to speak, knowing the consequences of it.
    Are you aware of or do you fear, do you have any sense or 
any reason to believe that there are those who have chosen--no 
one blames them for it--who have chosen to stop speaking up for 
purposes of avoiding what's happening to you?
    Ms. Hoja. Of course, like when I heard my brother was 
detained, I chose to not speak up, too, because my mother asked 
me--she said, Please, I already lost you. I do not want to lose 
my son, too. Because I have been, and we have been, my family 
could not unite in 17 years. I believe other Uyghurs have 
similar situations--somebody is locked up in the jail, or 
detained, or in reeducation camps. We don't want to put them in 
further danger because of our acts or any word against China.
    Chairman Rubio. In your time talking about these issues, 
highlighting them globally here in the United States, have you 
ever felt like media outlets, individuals, companies, whoever, 
have chosen to not speak about your cause for fear of the 
impact it might have on their ability to cover events in China 
or their ability to do business in China? In essence, they may 
not have relatives, but they may have other interests in China 
that they are afraid there will be retribution against them as 
a result, and therefore, they do not really want to get 
involved in your case.
    And listen, this could extend from a political figure who 
doesn't want to touch it because they have a company in their 
home state who does a lot of business. It could be businesses. 
It could be media outlets who have a bureau and don't want to 
lose access to a fast-growing and important country. I don't 
know if at any point you've felt that there are those who have 
been complicit because of their own interests separate from 
having family.
    You don't have to tell us who they are unless you want to. 
But I'm just curious whether that extends beyond simply those 
who have family members.
    Ms. Hoja. Yes, I know. If you want to interview someone who 
is involved in human rights issues, or other issues they are 
doing there, like investigations--some of them will say, Excuse 
me, right now I cannot speak. Those kinds of reactions we are 
facing all of the time. But I do not know the exact company or 
the person. Maybe our colleagues can follow up that question.
    Chairman Rubio. And again, we would be interested in that. 
It can be done confidentially if you choose for us not to share 
it. But I think it's part of the broader long arm of China, 
which I think goes well beyond--I mean, we have seen it at 
universities. There are universities in this country that will 
not provide you, sadly, a forum to say what you've just said 
because they're going to lose their Confucius Institute 
funding, or they're going to lose their campus in mainland 
China. And so they decide----
    Ms. Hoja. Even some Uyghur researchers in other countries, 
they have an opportunity to speak. They have freedom, but they 
are afraid, too.
    Chairman Rubio. All right.
    Ms. Batke and Professor Thum, I wanted to focus on two 
things. On our relationship with China, a lot has been said 
about what we can do. How can we influence behavior?
    It has been my experience that there are two things they 
seem to respond to and only two things. Number one is sort of 
sustained and committed pressure across the entire 
relationship, meaning the entire--you cannot just carve out 
pieces of it and say we're going to deal with trade here but 
human rights over here. We're going to deal with military 
affairs here but economics over here.
    They most certainly pressure--the strategy China seems to 
follow is not one of sweeping change, although when they see an 
opportunity, they seize it. It seems to be one of slow, steady, 
but consistent escalation. The South China Sea is an example. 
Every time, they push a little bit further, creating a new 
normal every step of the way. And they pressure across the 
board--so today is very enlightening.
    The administration had an opportunity to sanction ZTE. They 
did, basically issuing a death penalty--allowed them to come 
back into business by allowing them to buy chips from Qualcomm. 
Qualcomm had a pending deal in China, and the response of the 
Chinese after the ZTE thing got finalized is to continue to 
slow-dance Qualcomm, an American company, until the point where 
they've abandoned their hopes of doing business in China. 
Basically, they continue to sustain their pressure while we 
have given concessions on some things. I hope that was 
enlightening for the administration. I know it's unrelated 
directly to this topic.
    But the first is sustained and committed pressure across 
the relationship, and the second is something that Ms. Batke 
pointed out, and that is invoking international partners. They 
want to be--one of the goals of the Chinese Communist Party in 
the 21st century is to remake the global order to benefit them, 
to replace the Western global order that was established after 
the Second World War, with one that has their imprint. And part 
of that is the perception and the receptivity that people may 
have to that, based on their perceptions of China.
    And so if their perception of the Chinese Communist Party 
is that it's a country with a lot of money, a non-interference 
policy, that is there to help you build things and move ahead 
without having to put up with some of the restrictions that 
American aid or Western aid comes with . . . that makes them 
appear benevolent and peaceful and in many cases continues the 
whole ``bide your time and hide your power'' strategy that they 
followed for a very long time.
    If the perception of them is that they do bad deals, they 
take advantage of their partners and they violate people's 
rights . . . if it's a negative perception about the things 
they do, they're very sensitive to that because it goes right 
to the heart of their ability to remake the geopolitical 
system. And that's why they are so fearful of sustained--of our 
ability to invoke global partnerships to confront them and why 
it's important that we continue to do so. It's a little hard to 
do when you are fighting with some of the people that might 
join us in that, on trade, but hopefully that will be resolved 
so that we can do that.
    So here are my two questions. The first is, Why is it so 
important? I know why it was important in the context of the 
Cold War and the Soviet Union--that in every instance virtually 
every American President, in addition to raising Soviet 
expansionism and nuclear weapons threats, always raised the 
cause of human rights.
    If I were standing here today and said, Look, China is too 
powerful . . . they're too rich. We've got to do business with 
them. We can't afford to mess all of that up by raising these 
human rights issues--I've already outlined why I think it's 
important, and that is to sustain pressure across the 
relationship. But in your view, beyond the moralistic and 
humanitarian rationale, from a geopolitical rationale, why is 
it important that the United States, in every instance, raise 
these issues in every forum in which we engage them and--that's 
question 1. 1(A) is, Why is it important that it be public? 
Because the other thing we get is, We're going to raise it with 
them, but in private, because they don't like to lose face. 
They don't want to be embarrassed. So why is it important that 
we raise it geopolitically, just from sheer national interest, 
and why is it important that some of that or a lot of it be 
done publicly as opposed to in private one-on-one meetings? If 
you could both comment on that.
    Mr. Thum. I think, as Jessica Batke pointed out, when 
things are not raised repeatedly, there is a reset of the norm. 
And you have to claw back that little part of the discourse to 
get it back on the table. And then that comes at a cost.
    So I agree that it's important to raise this at every 
moment. And there actually is a legislative opportunity here. 
There's a law on the books from the late 90s that says that 
Tibet has to be raised in certain circumstances, and it would 
be very valuable, I think, to add the Xinjiang issue to that 
piece of legislation. I would add, though, that it's quite 
dangerous to link this Uyghur and Xinjiang issue to 
geopolitics. I heard the words ``blue seas'' earlier, which 
invokes this kind of balance where if we intervene in Xinjiang, 
then that affects this global military strategic situation. 
That plays in very neatly to the Chinese Communist Party's 
story about why they are engaged in this kind of activity and 
why they don't have to listen when people in the rest of the 
world say that this violates international norms.
    So I would hope we----
    Chairman Rubio. ``Story'' meaning that the West is trying 
to constrain and contain them from their rise?
    Mr. Thum. The West is trying to constrain and contain, and 
even that the West might have some sort of secret joy when 
there's unrest or trouble in Xinjiang and that this can be used 
as a pressure point on China in our geopolitical rivalry. So if 
we don't separate those concerns, we're going to have a great 
deal of trouble getting all of our international partners on 
board in undermining the CCP's narrative on why this is 
happening. And I'll also say just briefly----
    Chairman Rubio. I don't think you are saying it shouldn't 
be raised in every forum, but I take what you're saying as, it 
should be its own separate category within the broader 
engagement, meaning you don't trade human rights for a better 
trade deal.
    Mr. Thum. That's--yes, sure. I would accept that. I would 
also say that we are thinking somewhat small here. Senator King 
raised the long-standing criticism of America's activities in 
regard to 1930s Germany. I would remind everyone that that 
supposedly insufficient reaction included Roosevelt recalling 
our Ambassador from Berlin. We are behind the curve on that 
reaction which is considered historically now to be 
insufficient.
    Dr. Batke raised the issue of terminology and pointed out 
that these nightmare words of the 20th century--concentration 
camp, apartheid, gulag, all started out their careers as 
euphemisms that were designed to hide the terrors. That's the 
point we are at now. But one day Xinjiang's reeducation camps, 
under one name or another, are going to join that list of 
widely recognized atrocities. And I think we have a 
responsibility to act boldly to address that issue.
    Ms. Batke. I would second everything Dr. Thum just said. In 
terms of why it is important to keep bringing it up all the 
time, beyond what he just said, there's this issue of the 
exporting of Chinese norms--as you were talking about--across 
the world. And I think that one thing that is important to 
remind other people is China touts itself as this country that 
does not interfere in the internal affairs of another.
    But beyond the moral imperative of bringing this up, it's 
important to remember that when we don't, we are allowing them 
to interfere in our internal affairs and decide how we decide 
to bring up and frame things. And that's a point that I think 
can be brought up again to other countries in terms of why they 
should also be speaking up, because those norms are also being 
reset and exported to those countries.
    In terms of why it's important to keep these things public, 
cordoning off these conversations into only private discussions 
allows them to confine that discussion and allows them to walk 
away from things without any sense of shame or embarrassment. 
International pressure is effective. And I would point to the 
case of Liu Xia who was just recently released from house 
detention in Beijing and allowed to go to Germany. And that was 
a two-pronged effort. That was a lot of quiet diplomacy behind 
the scenes but also a sustained and public campaign keeping her 
case in the public eye.
    Chairman Rubio. And just on the public front versus 
private, on an individual basis, if there is an individual case 
somewhere in the world and progress can be made because there's 
some internal political reason why they've got to be able to 
save face--that's one thing. But we are talking about 
detention, and frankly in my view, the torture, humiliation, 
and abuse of hundreds of thousands of people--more, actually.
    And that's why--there is not one individual that they could 
somehow just--this is one person. And I am not downplaying that 
one particular case, but that's what we do on this Commission. 
It's overwhelming. We could--volumes of names if that's what we 
choose to do in that regard.
    I do want to ask both of you_the second part about invoking 
international partners to confront it. It is my view that if 
something even a quarter as bad as this were occurring in 
virtually any Western democracy now or various other countries 
around the planet, it would not just get more media coverage, 
but it would be widely condemned in every international forum. 
There would be widespread action against it. I mean, it would 
be intolerable.
    Why isn't this occurring in the same way? What have they 
done or what is happening that has prevented this from reaching 
that level of international attention? I suspect I know the 
answer, but I would love to see if you agree. So I'm not going 
to tell you my answer until you tell me yours.
    Ms. Batke. Sure. I would say, quite baldly, money talks. 
China is very effective at going to countries one-on-one and 
making clear that they are happy to use their economic leverage 
as necessary to get their silence. I think this is really clear 
in the case of the Organisation of Islamic Cooperation. They've 
only issued two statements about what's happening in Xinjiang: 
one right after the Urumqi riots in 2009, and one in 2015. But 
they said nothing since all of this has been happening in the 
last year. I strongly suspect that that has to do with economic 
concerns on their part.
    Mr. Thum. Yes, I don't have much to add to that. I think 
you're right. This would be roundly condemned if it happened 
virtually anywhere else. It would be a major news item. And I 
agree that this is about money and China's economic clout. It's 
not helped by major powers like the U.S. retreating from human 
rights concerns and putting economic concerns first. But yes, 
that's absolutely what it is.
    Chairman Rubio. It strikes me--and that's my assessment as 
well. I mean, that is how I feel as well, and it is not--
obviously, money does talk, and Chinese investment abroad isn't 
simply into roads and bridges. I mean, they fund political 
parties. They fund individuals. There are all sorts of things 
that come about as a result of this, and that leverage is one 
they made very clear.
    We've also seen them, for example, cut off tourism to South 
Korea, allow agricultural products from the Philippines to rot 
at the port, deny rare earth minerals to Japan--all in 
retribution for decisions that were made in those countries.
    So taking that as a factor, you basically testified here 
today that the reason why certain countries cannot internally 
make a political decision to confront this in international 
forums is because the Chinese are using leverage. We've heard 
how they go after the family members of United States citizens 
as leverage to try to silence criticism of their practices.
    And I think that's a pretty stark example of how 
hypocritical they are when they talk about their policy of 
noninterference when they are directly interfering in the 
affairs of other countries, because they are interfering with 
citizens of other countries by going after their families. They 
are interfering with their political leaders by threatening to 
cut them off from essential aid and help. They are shaping and 
interfering quite directly. So the hypocrisy of that is 
extraordinary.
    I have one more question. We do need to wrap up.
    Dr. Batke, I wanted to ask you about the testimony that you 
gave regarding the Communist Party Secretary Chen Quanguo and 
his role within the leadership and the role that he plays in 
the repressive measures. You pointed to him as sort of the one 
individual that we should be looking at and--in your view, what 
would be the psychological--we would have to view what the 
economic impact of it is and the like. But you have talked 
about it and you have described it as a pretty significant 
escalatory measure, one that would get attention because for 
the first time you are not going after a country or even a 
party, but a specific individual.
    I know I am asking you to speculate, but what impact do you 
think that would have internally among them, knowing now that, 
if they are participants in this sort of activity, they are now 
individually going to be named internationally as complicit in 
these activities?
    Ms. Batke. You're right. I cannot speculate about what's 
going on in their heads directly. I don't think that it would 
necessarily stop people from choosing to participate. And as 
much as we talk about repression, I think also there's a lot to 
be said about the choices of people in government in terms of 
whether they feel like they can completely step back from what 
they've been asked to do. So I don't know that it would prevent 
other young people from joining the government and choosing to 
do this. But I do think it would be an incredibly powerful 
symbolic step, particularly because Chen Quanguo is so high up 
in the Chinese Communist Party, rather than going after someone 
who is very low level, running maybe a camp or something. 
Although I think we should name and shame those people as well. 
This actually would show that the U.S. Government is 
unequivocally condemning these camps and is willing to raise it 
to a very high political level to do it.
    Chairman Rubio. My last two questions, and I'll be brief.
    On the first--you were here for the first panel. You saw 
the back and forth with the Commerce Department--and again, I'm 
paraphrasing. But what I took from it is two things. Number one 
is our laws may potentially need to be updated to include new 
things, such as these repressive tools. I mean these tools that 
did not exist before.
    But the other thing I took from it is we have to make--I am 
paraphrasing, but the way I took it was, we look at this 
product, the DNA sequencer. They're easy to do. They're not 
really that complex, although if there was not something unique 
about them, they wouldn't have to buy them from this company in 
Massachusetts. But nonetheless, they're not that advanced. 
China makes them. Plenty of other countries make them. They can 
find them anywhere in the world anyway. And they have a 
legitimate purpose.
    If we deny it, they're still going to keep doing what 
they're doing. The only consequence will be that some American 
company will not be able to make money off of it. So since 
they're going to do it anyway, we might as well continue to 
make a profit.
    In addition to the immorality of that and the notion about 
whether we want to be complicit in it, isn't that exactly what 
they're counting on, the idea that they know that one of the 
most powerful constituencies in America is business interests 
who, frankly, don't feel like they have a human rights 
obligation. They feel like they have a fiduciary obligation to 
their owners or shareholders to return a profit. And as a 
result, for them, they bring pressure to bear on the United 
States.
    I see this in multiple realms, by the way, not just with 
regard to China. But one of the most consistent arguments you 
always get is of the business community coming back and saying, 
you're hurting us. We have a good thing going, and this huge 
market, and if you do this, you are going to hurt an American 
company. The Chinese government clearly understands that 
leverage point and they use it. Do they not?
    Ms. Batke. Yes.
    Chairman Rubio. Does anyone disagree with that?
    Mr. Thum. I agree with that, and the conclusion that leads 
me to is that whatever action the U.S. Government takes is 
going to come at a cost. It's going to come at a cost to 
American citizens, and it's going to come at a cost to the 
options on the table for the U.S. Government. This is about 
political will.
    Chairman Rubio. All right. My final question is, if you're 
sitting in the Chinese Communist Party headquarters today and 
you're reviewing this policy, you probably aren't even aware 
that we are having this hearing, but the people who are in the 
embassy here are, and they are annoyed by it. They don't like 
this commission. They most certainly don't like me, and they 
get irritated when these things come up. But by and large, the 
world will go on, and tomorrow morning this is not going to 
lead headlines here, or anywhere, for that matter. The work 
continues. There are people that are certainly being 
intimidated by it.
    In essence, they're sitting there thinking to themselves, 
this stuff is working. No one's condemning us internationally. 
We're continuing to do what we're doing. We're getting better 
at it every single day. As time goes on, it'll get easier as 
young people get disconnected from their heritage and their 
families.
    Yes, they will have some commission hearings and a couple 
of senators and congressmen will write letters. And maybe they 
will cut us off from a DNA sequencer one day, and maybe a 
couple of our individuals might get sanctioned, but that's a 
small price to pay for the big picture.
    It's working. That's the saddest part of all. This strategy 
they are carrying out is working. That would be their view. And 
unless we change that dynamic or at least raise the price for 
it, this will continue. It will grow. It will become more 
widespread. In essence, it'll become the new normal. It will 
become baked in to the reality.
    Am I wrong in that horrible assessment?
    Mr. Thum. I think you're right about the attitude that they 
have toward this. And you're right about the threat that this 
becomes baked in to a larger order. We see, for example, some 
of these technologies used in Xinjiang being exported to South 
America. But I don't think this is a hopeless cause because 
China's expanding influence around the world depends a great 
deal on its reputation. For that reason, its leaders are very 
sensitive about its global reputation.
    So the more that we can do publicly, and in particular, in 
partnership with other countries around the world, to expose 
what's going on and to shame the Chinese state for engaging in 
this kind of behavior, the greater the cost will be. I think 
it's a mistake to consider decision making at that level as 
something where they're certain about what they are doing. They 
see this as a balance of costs and benefits. And if we can add 
to the cost side, we may very well be able to shape the 
situation.
    Chairman Rubio. And I don't disagree with your assessment 
that this is not a hopeless cause. In fact, I only think it 
becomes a hopeless cause if we accept it as a fact that we have 
to deal with.
    I raise the fact that it is working for the following 
reason, and that is, we can have a lot of commission meetings. 
We're going to issue our report, we're going to file bills, 
we're going to write letters, we're going to give speeches, and 
we are going to highlight this as much as we can. But this 
needs to be prioritized at the highest levels of our engagement 
both with China and the international community.
    Congress is an important part of it, and we can even be the 
catalyst for it. But there is no replacing executive-level 
attention to this as part of the overall framework of our 
interaction with the international community and with China. 
And that is the only way that ultimately, we are going to see 
that cost-benefit analysis adjusted.
    Congress can be a catalyst for it. Individual senators and 
congressmen can be a catalyst for it, but the execution of it 
will require us to have sustained--across both parties, across 
a sustained period of time, across multiple presidential 
administrations--attention to this. This cannot be a one-off 
issue. And that's the only way to keep it from becoming 
hopeless. That's why I asked that, because if we want some 
sense of urgency, we shouldn't think that simply shining a 
light on it alone is going to change that dynamic.
    We need the top people in our government not just to be 
aware of this but to be outraged by it, and to embrace it as 
part of our overall narrative. That's what we're hoping to do. 
And that's what I hope the first panel took back.
    So I want to thank you all for being here, particularly 
you, Ms. Hoja. Thank you for being a part of this. I know this 
is an ongoing issue for you. After we leave this hearing here 
today, you live with this reality. But I thank you for your 
courage, your bravery, and your willingness to stand here today 
and provide that testimony. Thank you all for being a part of 
it. I know it takes time away from your other endeavors to be a 
part of this.
    The record on this hearing will remain open for 48 hours in 
case some of you would like to submit additional information 
for the record so it can be a part of our record and maybe even 
make it into our report before we issue it in October. And 
there may be some follow-up questions from Members. If you have 
time to answer, we'd love to have that.
    With that, the hearing is adjourned.
    [Whereupon, at 12:15 p.m. the hearing was concluded.]

      
      
=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


              Prepared Statement of Anthony Christino III

    Thank you Chairman Rubio, Chairman Smith, and Members of the 
Congressional-Executive Commission on China for convening this hearing 
today on this important topic. Today I will be discussing the role of 
the Bureau of Industry and Security in regard to export license 
requirements for China.
    Under the Export Administration Regulations (the EAR), a Bureau of 
Industry and Security (BIS) license is required for the export or 
reexport of most items on the Commerce Control List (CCL) to China. 
Items on the CCL are identified by their individually assigned Export 
Control Classification Number according to their reasons for control. 
The CCL is comprised of items controlled by the multilateral export 
control regimes (Wassenaar Arrangement, Missile Technology Control 
Regime, Australia Group, and Nuclear Suppliers Group) as well as items 
controlled unilaterally for foreign policy reasons.
    In support of U.S. foreign policy to promote the observance of 
human rights throughout the world, the United States unilaterally 
controls items on the CCL for crime-control reasons, as required by 
Section 6(n) of the Export Administration Act of 1979, as amended \1\ 
(the EAA). As set forth in the EAR, the U.S. Government requires a 
license to export most crime-control and detection instruments, 
equipment, related technology, and software to all destinations other 
than Australia, India, Japan, New Zealand, and members of the North 
Atlantic Treaty Organization. Additionally, a license is required to 
export certain crime-control items, including restraint-type devices 
(such as handcuffs) and discharge-type arms (such as stun guns), to all 
destinations except Canada.
---------------------------------------------------------------------------
    \1\ 50 U.S.C. Sec. Sec.  4601-4623 (Supp. III 2015).
---------------------------------------------------------------------------
    The EAR imposes some limited controls on items not on the CCL. 
Items subject to Commerce licensing jurisdiction under the EAR but not 
specifically identified on the CCL are designated EAR99. Such items 
generally do not require a license for export or reexport to China 
unless destined for certain WMD-related end uses or end users, or 
unless the items are part of a transaction involving a restricted party 
identified on one of several lists of sanctioned or restricted entities 
maintained by agencies of the U.S. Government, including BIS, the 
Department of State, and the Department of the Treasury.
    Items controlled for crime-control reasons are added to or removed 
from the CCL based upon continuous review of the merits of maintaining 
the controls and the effectiveness of the controls. Section 6 of the 
EAA prohibits the imposition of foreign policy controls, including on 
crime-control items, unless certain determinations are made and certain 
factors reported to Congress, such as determinations that the controls 
are likely to achieve the intended foreign policy objective, 
descriptions of consultation efforts with industry and other supplier 
countries, determinations related to the economic impact on U.S. 
industry and efforts to achieve the purpose of the controls through 
alternative means, descriptions of foreign availability, and 
determinations regarding the ability to effectively enforce the 
controls.
                 crime control licensing review policy
    The U.S. Government considers applications to export or reexport 
most crime-control items favorably, on a case-by-case basis, unless 
there is civil disorder in the country or the sale involves a region of 
concern, or there is evidence that the government may have violated 
human rights. The purpose of these controls is to deter the development 
of a consistent pattern of human rights abuse, distance the United 
States from such abuse, and avoid contributing to civil disorder in a 
country or region. The U.S. Government maintains a general policy of 
denial for specially designed implements of torture, regardless of the 
intended destination.
    Applications to export crime-control items to countries that are 
not otherwise subject to sanctions or comprehensive embargoes, but that 
are identified by the Department of State as human rights violators, 
receive additional scrutiny in the license review process. The 
Department of State reviews all license applications for these 
countries on a case-by-case basis and makes recommendations to 
Commerce.
   specific licensing review policy for china for crime-control items
    Following the 1989 military assault on demonstrators by the Chinese 
government in Tiananmen Square, the U.S. Government imposed constraints 
on the export to China of crime-control and detection instruments and 
equipment on the CCL under Section 902(a)(4) of the Foreign Relations 
Authorization Act, Fiscal Years 1990 and 1991, Public Law 101-246.
    In fiscal year 2017, the Department of Commerce approved 25 
licenses to China of crime-control items, 21 of which were for the 
return of defective rifle scopes and one license for the return of 
defective shotguns to their original Chinese manufacturers for refund 
or replacement, and three were for biometric identification equipment 
for a third country's visa system operating at its own diplomatic 
facilities in China. There were nine denials, including applications 
for cattle prods and stun guns, optical sighting devices, pepper spray, 
fingerprint powder, dyes and inks, and voiceprint software, to Chinese 
security agencies, manufacturing and development firms, and resellers.
    Thank you again for the opportunity to testify here today. I will 
be happy to take your questions.

                                 ______
                                 

                 Prepared Statement of Kelley E. Currie

    Thank you, Chairman Rubio, Chairman Smith and other members of the 
Commission for convening this important hearing today. I am pleased to 
be able to appear before the Commission on behalf of the U.S. Mission 
to the United Nations and discuss our concerns regarding the growing 
human rights crisis in Xinjiang, with a particular focus on how this 
crisis is being addressed--or not--at the United Nations, including 
through its various human rights mechanisms and deliberative bodies. I 
would like to submit my full remarks for the record.
    As Secretary Pompeo noted yesterday in his op-ed welcoming the 
first ever U.S.-sponsored Ministerial to Advance Religious Freedom, the 
State Department recently hosted six journalists from Radio Free Asia's 
Uyghur Service to hear directly from them about the situation on the 
ground in Xinjiang. What RFA, as well as the Uyghur Service at VOA, 
have documented over the past year is truly disturbing. Their reporting 
indicates that Chinese authorities are likely detaining hundreds of 
thousands of Uyghurs and other Muslim minorities in what can only be 
described as internment camps across Xinjiang. There, they are 
subjected to ``political reeducation'' designed to undermine their 
distinct Uyghur identity. One of these journalists, Gulchehra Hoja, 
will testify in the next panel, and will undoubtedly tell you about how 
23 of her family members--twenty-three--have been detained and how, 
since their detention, the authorities have provided little to no 
information about her family's well-being.
    According to a growing number of credible reports by media and 
human rights organizations, a version of Gulchehra's story is becoming 
the norm for nearly every Uyghur living outside China who has family 
still in Xinjiang. In fact, having a family member overseas appears to 
be a key trigger for increased scrutiny for Uyghurs living in Xinjiang. 
Likewise, having studied, traveled or worked overseas, appearing to be 
an observant Muslim, and having an above average education also seem to 
be among the reasons that certain individuals are subject to intensive 
scrutiny by the authorities, including detention in the camps. Think 
about that: over the past year, hundreds of thousands of law-abiding 
Uyghur citizens of China--men, women, and even children--have 
disappeared into state custody, with barely any notice from the 
international community. That is why this hearing is so timely and 
important.
    The United States is deeply troubled by the Chinese government's 
worsening crackdown on Uyghurs, Kazakhs, and other Muslims in China's 
Xinjiang Uyghur Autonomous Region. Since April 2017 the Xi Jinping 
leadership, under the guise of fighting ``terrorism,'' ``secession,'' 
and ``religious extremism,'' has greatly intensified the Chinese 
Communist Party's long-standing repressive policies against mainstream, 
non-violent Muslim cultural and religious practices in Xinjiang. The 
stated goal of the current campaign is to ``sinicize religion'' and 
``adapt religion to a socialist society,'' suggesting that Beijing 
wagers that it now possesses the political, diplomatic, and 
technological capabilities to transform religion and ethnicity in 
Chinese society in a way that its predecessors never could, even during 
the peak horrors of the Cultural Revolution and other heinous Maoist 
campaigns intended to remake Chinese society.
    The scope of this campaign is truly breathtaking: authorities now 
prohibit ``abnormal'' beards and the wearing of veils in public, and 
classify refusal to watch state television, refusal to wear shorts, 
abstention from alcohol and tobacco, refusal to eat pork, fasting 
during the holy month of Ramadan, or practicing traditional funeral 
rituals, as potential signs that individuals harbor extreme religious 
views. Chinese authorities have banned parents from giving their 
children a number of traditional Islamic names, including ``Muhammad,'' 
``Islam,'' ``Fatima,'' and ``Aisha,'' and have reportedly required 
children under age 16 who have Islamic names to change them. Of 
particular concern, since 2015 Chinese authorities have increasingly 
criminalized or punished the teaching of Islam to young people--even by 
their parents--adopting at least six laws or regulations which put 
parents and religious educators at legal risk for promoting non-violent 
Muslim scripture, rituals, and clothing to children. Chinese 
authorities also continue to crack down in particular on the use of 
Uyghur and other minority languages at universities and in classroom 
instruction.
    Failing to comply with these restrictions, or activities such as 
communicating with relatives abroad and studying in foreign countries, 
has reportedly led to the detention of a large number of Uyghurs and 
other Muslims, including families and children, in facilities for 
purported ``patriotic reeducation.'' Detainees are required to learn 
the Chinese language, recite Chinese and Xinjiang laws and policies, 
watch pro-government propaganda videos, express their gratitude to the 
Communist Party and General Secretary Xi Jinping, and renounce their 
ethnic identities, religious beliefs, and mainstream cultural and 
religious practices. Detainees are granted no due process or contact 
with their families, and periods of detention have ranged from several 
months to indefinite detention in many cases. A wide array of evidence 
indicates that the number of individuals detained in such reeducation 
centers since April 2017 numbers at least in the hundreds of thousands, 
and possibly millions. There are even disturbing reports that young 
children have been sent to state-run orphanages if even one of their 
parents is detained in the internment camps. Notable detainees 
reportedly include well-known Uyghur athletes, prominent 
businesspersons, scholars, and students. There have been credible 
reports of at least two dozen deaths in these camps, including senior 
citizens who were incarcerated, including the widely revered 82-year-
old Uyghur religious scholar Muhammed Salih Hajim. We call on China to 
end these counterproductive policies and free all those arbitrarily 
detained.
    To guarantee that this suppression continues beyond the internment 
camps into the daily lives of all Uyghurs, Chinese authorities have 
constructed a highly intrusive, high-tech surveillance system in 
Xinjiang, which many experts fear will be extended throughout China. 
This system includes thousands of surveillance cameras, including in 
mosques; facial recognition software; obligatory content-monitoring 
apps on smartphones and GPS devices on cars; widespread new police 
outposts with tens of thousands of newly hired police, and even Party 
personnel embedded in people's homes; and compulsory collection of vast 
biometric datasets on ethnic and religious minorities throughout the 
region, including DNA and blood samples, 3D photos, iris scans, and 
voiceprints. Human Rights Watch has documented that many of these DNA 
samples were collected deceptively as part of what regional officials 
called a Xinjiang-wide ``health'' campaign. This surveillance system 
has spurred security experts and Xinjiang specialists to label it one 
of the world's most intrusive police states.
    As with many things related to China's human rights abuses, the 
repression does not stop at the Chinese border. The detention and 
persecution of Uyghur and other Muslim minorities in Xinjiang has 
compelled them to stop communicating with their family and friends 
based abroad, including in the United States, for fear of retribution 
by authorities. We have received reports that U.S. lawful permanent 
residents and family members of U.S. citizens have been detained in 
these detention centers for indefinite periods. We have also received 
reports that U.S. citizens have been detained and interrogated while 
visiting Xinjiang. In addition to the cases of the RFA journalists 
mentioned earlier, we note that more than thirty relatives of Ms. 
Rebiya Kadeer have been disappeared or detained. This treatment of U.S. 
citizens, U.S. LPRs, and their family members is unacceptable, and we 
unequivocally condemn these actions by the Chinese government. China 
must provide information about the locations and medical condition of 
those detained and immediately release them if there is no evidence of 
actual criminal activity. We also have demanded that, at a minimum, 
China should meet its obligations under international law to provide 
consular access, not to mention minimum standards of due process, to 
those it has detained.
    We also are concerned by reports of Chinese authorities harassing 
Uyghurs abroad in order to compel them to act as informants against 
other Uyghurs, return to Xinjiang or remain silent about the situation 
there, sometimes by detaining their family members. This includes 
harassment of American citizens, LPRs, and individuals legally residing 
in the United States. China has applied similar pressure to dual 
nationals or family members of citizens in other countries. Dating back 
to at least 2003, China has pressured other countries to forcibly 
return Uyghurs, at times claiming that individuals are members of 
``extremist groups'' without credible evidence. China has also abused 
the INTERPOL Red Notice system, inappropriately placing international 
security travel notices on religious and political dissidents. We 
applaud governments that have resisted Chinese pressure and upheld 
their commitments to international human rights.
    What is happening in Xinjiang is not just a human rights matter; it 
is also a security issue. China, like every other country, has the 
right to protect its security. But for these measures against violent 
extremism to be effective, they must promote good governance, 
inclusion, and respect for the rights of its minority citizens. 
However, draconian, indiscriminate, and disproportionate controls on 
ethnic minorities' expressions of their cultural and religious 
identities have the potential to incite radicalization and violence. 
Chinese authorities appear to be targeting law-abiding Uyghurs--
including non-violent activists and advocates for human rights--as 
terrorist threats on the basis of their political, cultural, and 
religious beliefs and practices, even if they do not advocate violence.
    Given the severity of this crisis, it is worth asking: why haven't 
the pre-eminent human rights bodies of the United Nations taken up this 
issue, exposed it, and demanded changes in China's policies? Part of 
the answer certainly lies with China's membership on the UN's Human 
Rights Council, its role as a permanent member of the Security Council, 
and its ability to continue to portray itself as a developing country 
from the ``Global South'' in alignment with the Group of 77. From its 
perch on the HRC, China is able to effectively block any action on its 
appalling human rights record in Xinjiang, as well as scrutiny of the 
broader human rights crackdown under way in China. Likewise, by 
severely limiting access for special rapporteurs, human rights experts 
and the Office of the High Commissioner for Human Rights, the Chinese 
limit the discourse around these abuses. As a veto-wielding member of 
the Security Council, China effectively shuts down not only any 
discussion of its human rights abuses, but uses its position to shield 
other bad actors from criticism and generally block efforts to raise 
human rights issues in the Council. In doing so, China gains favor with 
other countries that have poor human rights records--of which there 
remain far too many in the UN--and these help block criticism of China 
in the General Assembly and other forums.
    Perhaps more disturbing than these defensive strategies, however, 
is China's ongoing, comprehensive effort to re-write the entire 
normative framework of international human rights in a manner that is 
more aligned with its authoritarian political system and the interests 
of the Chinese Communist Party. This effort includes an emphasis on the 
``right to development'' versus fundamental civil and political rights, 
and the promotion of ``win-win'' cooperation on human rights that 
privileges the interests of governments over their basic obligation to 
respect inherent human rights that attach at the individual level. A 
key aspect of this effort is China's ability to obfuscate its 
intentions behind talk of ``mutually beneficial cooperation'' and a 
``shared future of all humanity'' that appeals to other governments who 
dislike being criticized for human rights violations. The Chinese took 
a major step forward at the March 2018 session of the UN Human Rights 
Council, when the Council passed a Chinese resolution promoting ``win-
win cooperation'' on human rights. The United States was the only vote 
against the resolution. At the same session, I listened in horror as 
the UN High Commissioner for Human Rights praised the good intentions 
he saw behind Xi Jinping's ``win-win'' slogans, seemingly oblivious to 
the threat they pose to the very notion of respect for individual human 
rights. Instead, he offered only a wan concern about the ``mismatch'' 
between the aspirations of ``win-win'' and its implementation on the 
ground--as if they were not fruit of the same poisonous tree. In the 
same speech, Prince Zeid expressed strong concerns about ``hate 
speech'' and other perceived human rights abuses in the U.S. It was 
nothing short of surreal.
    In April, I had the opportunity to hear directly about the 
situation in Xinjiang from Mr. Dolkan Isa, who is the president of the 
World Uyghur Congress. He was in New York to attend the annual meeting 
of the UN Permanent Forum on Indigenous Peoples. Mr. Isa is a quiet and 
diligent person, now a naturalized German citizen, who carefully and 
deliberately explains the repression that his community in Xinjiang is 
experiencing--despite the fact that his own family has been targeted by 
the authorities and he has essentially lost communication with them. We 
had our discussion about this situation while we sat in a small lounge 
outside the UN Security Council. The fact that Mr. Isa was even able to 
sit in that lounge, inside the walls of the UN, was a minor miracle 
given the extent to which Chinese authorities have gone to block him 
from entering the premises over the years. In April 2017, while 
attempting to attend the same Forum as a member of the Unrepresented 
Nations and Peoples Organization delegation, Mr. Isa was forcibly 
removed from the UN premises after representatives of the Chinese 
mission to the UN alleged he was a security threat. The Chinese 
authorities provided no evidence to back up their claims but UN 
security removed Mr. Isa nonetheless. This shocking behavior was 
subsequently documented in a report on reprisals against human rights 
activists by the UN Secretary General. This report, which criticized 
the manner in which UN security responded and called for changes to the 
way the UN handled such allegations, was released one month before the 
2018 Indigenous Peoples Forum. Yet the Chinese mission in New York 
attempted again this year to block Mr. Isa from participating as an NGO 
delegate, accusing him of involvement in terrorist financing and 
recruitment, while again providing no evidence. After a lengthy delay 
and several interventions from the U.S. and German missions on Mr. 
Isa's behalf, he was finally allowed to participate on the final day of 
the Forum.
    Having been thwarted in their efforts to block Mr. Isa's 
participation, the Chinese delegation then went after the German NGO 
that had sponsored his participation--the Society for Threatened 
Peoples. They used their position as a member of the UN committee that 
accredits civil society participation to attempt to revoke the 
Society's consultative status. In their remarks to the Committee, the 
Chinese referred to Mr. Isa as a terrorist and a separatist who 
threatened Chinese sovereignty and territorial integrity. Let that sink 
in for a moment--China, a permanent member of the UN Security Council, 
a nuclear power with one of the biggest armies in the world--is 
threatened by a mild-mannered German citizen who talks about China's 
treatment of the Uyghur people.
    Once again, the U.S. and German missions pushed back and we 
ultimately overcame Chinese efforts to intimidate the NGO. Afterwards, 
several NY-based colleagues expressed surprise that the normally 
careful and disciplined Chinese delegation would go to such extreme 
lengths--including a highly public fight with the United States in the 
NGO Committee--to block the participation of a previously little-known 
activist in a relatively obscure UN event. But those who follow human 
rights issues in China were not the least bit surprised to see the 
Chinese attempt to use the NGO Committee or any other part of the UN as 
a tool to carry out reprisals against an individual who has spoken out 
about China's human rights record, in particular China's treatment of 
Uyghur Muslims.
    With China facing both its Universal Periodic Review and a period 
review in the Committee on the Elimination of All Forms of Racial 
Discrimination later this year, there will be more opportunities to 
call attention to the situation in Xinjiang, as well as the ongoing 
abuses in Tibet and Inner Mongolia and the general crackdown under way 
against human rights defenders, lawyers and other dissidents across 
China. The question is: Will others join us? So far the silence has 
mostly been deafening.
    I want to conclude my remarks by talking about a case that is close 
to my heart: the Uyghur scholar Ilham Tohti. Ilham was an economics 
professor at Minzu University who wrote blog posts and articles 
asserting Uyghurs' rights to genuine autonomy under Chinese law, which 
resulted in his arrest and a life sentence in prison in 2014 on charges 
of separatism. He was the kind of moderate voice who advocated for 
improved understanding between Han Chinese and Uyghurs while also 
encouraging the Chinese authorities to respect Uyghurs' linguistic, 
cultural, and religious rights. He was a friend to Chinese human rights 
lawyers, Tibetan writers, and American scholars. His lovely daughter 
Jewher is today a student at Indiana University. He was supposed to 
travel with her and take up a teaching post there, but instead Chinese 
authorities pulled him off a plane and took him to prison. Today, he is 
serving a life sentence for separatism. We remain deeply concerned 
about the ongoing detention of Ilham Tohti, not just because of the 
issues around his arbitrary detention and unfair trial, as well as his 
worsening medical condition as he serves his absurd sentence, but 
because of the broader implications of China's targeting of him and 
moderate voices like him--the very people who could help to build a 
truly multi-ethnic, multi-confessional, stable and prosperous society 
in Xinjiang and throughout China.
    As a small tribute to Ilham and those like him who are suffering 
for trying to improve human rights in Xinjiang and China, I would like 
to read a Chinese poem written in the aftermath of Nobel Peace Prize 
winner Liu Xiaobo's death a little more than one year ago. This poem 
could just as easily apply to Ilham Tohti and the other voices calling 
for moderation, peaceful coexistence and respect for human rights that 
the Chinese government is attempting to silence in Xinjiang:

[GRAPHIC] [TIFF OMITTED] T0993.007

    The world should know what is happening in Xinjiang, and USUN is 
committed to working toward that end--to watering the seeds, wherever 
they are. We face an uphill climb to do so at the United Nations, but 
we look forward to working with Congress, our colleagues in the 
administration, and with other countries who are committed to human 
rights, to ensure that China is not able to bury these abuses in the 
ground.

                                 ______
                                 

                  Prepared Statement of Gulchehra Hoja

    Mr. Chairman, Mr. Cochairman, and distinguished members of the 
Commission, it's my privilege to participate in today's hearing on a 
topic that deeply affects me personally and professionally as a 
reporter working for an organization with a congressional mission of 
bringing reliable news and information to people in China.
    My name is Gulchehra Hoja, I'm a journalist with Radio Free Asia's 
Uyghur language service, and I'm a U.S. citizen. I grew up in Urumqi, 
the capital of the Uyghur region in China, where I began my career in 
broadcast journalism before coming to the United States in 2001 to work 
for Radio Free Asia (RFA). It was a great sacrifice to leave my 
homeland, where I had enjoyed success as a television journalist and 
where my parents, family and friends would remain. But coming here 
guaranteed me freedom--something that could never be realized in China. 
There, censorship and the pressure to toe the official line make 
truthful, objective journalism impossible. Being part of RFA, which 
broadcasts trustworthy news daily into Xinjiang, was for me the dream 
of a lifetime. Through this outlet, I could share this newfound freedom 
with those loved ones left behind. What I didn't know then was the 
price for making this dream a reality. Nor did I know that it would be 
my family who would be forced to pay dearly for my freedom to live and 
work as a journalist in the United States.
    As I testify before you here today, it grieves me no end to say 
that my parents remain under threat, and more than two dozen of my 
relatives in China are missing--almost certainly held in reeducation 
camps run by authorities in the Xinjiang Uyghur Autonomous Region 
(XUAR).
    I last saw my mother when she visited me here in the United States 
in 2005. Only one of my three children has ever met my parents--my 
oldest daughter, when she visited them with my husband in 2008. I had 
no choice but to miss that family trip. Because of my work, it's too 
dangerous for me to go back to China.
    For the 17 years since I've worked for RFA, local police and 
authorities have harassed my family. They've watched their every step, 
monitored their movements, and constantly questioned them about my 
whereabouts and whether I plan to return. The treatment my family has 
had to endure is because of my decision to come to America. Authorities 
considered it a betrayal. When I left the XUAR I had established myself 
by launching and hosting the first children's program in the Uyghur 
Region for Xinjiang TV. (To this day, I hear from Uyghurs living in 
China that they saw me on television when they were children.) Chinese 
state media officials recognized my appeal with Uyghur audiences and 
rewarded me with national recognition and elevated status. But I always 
knew in my heart, as someone who witnessed repression in daily life for 
Uyghurs, that this success was not enough. I wanted to use my voice to 
bring issues into the light. Without even knowing it then, I wanted to 
be a real journalist--one who is unafraid to ask questions and unafraid 
to seek answers.
    I was raised by educated parents who taught me to value culture, 
history, and most of all, open and free dialogue. It troubled me to 
witness how Chinese authorities not only downplayed these aspects of 
Uyghur identity--including religion and language--on state media, but 
also sought to erase them entirely. When I first heard Radio Free Asia 
during a trip to Europe, I knew right away that I had found my calling. 
To hear a report about a protest by Uyghurs in Germany against 
Beijing's restrictive policies in the XUAR that would otherwise never 
be reported on, let alone known inside China, was amazing. Shortly 
after, I contacted the director of RFA Uyghur and asked about working 
for the broadcaster. He warned that I would have to give up everything 
if I were to leave China and work for the organization. It was a 
difficult choice, I told him, but it would be hard to live with myself 
if I didn't make it.
    Since coming to RFA, I have felt fortunate to continue my work as a 
member of the world's only Uyghur language news service outside of 
China. For the roughly 12 million Uyghurs living in China's Northwest, 
one of the world's most restricted media environments, my colleagues 
and I are the only credible source for in-depth news and information of 
what's happening in their towns, cities, and villages. RFA first 
reported on the July 2009 unrest in Urumqi, the following 10-month 
communication blackout in the region, the harsh restrictions preventing 
Uyghurs from observing the holy month of Ramadan and practicing their 
faith, the banning of the Uyghur language being taught in many schools, 
and the mass arrests and disappearances of men suspected of 
participating in protests and unrest. I have followed these stories 
with concern for my loved ones back home.
    But early last year, my worries grew as my colleagues and I 
uncovered even more disturbing evidence that China was building a 
security state of vast reach and scope. We reported on the wide-
sweeping use of technology to track Uyghurs, the building of 
convenience police stations that dot the streets of Kashgar and Urumqi, 
even in mosques and elementary schools, and the confiscation of 
passports to bar any travel or movement out of the region for most 
Uyghurs. Chinese authorities showed barely any restraint in rounding up 
people, taking their smartphones, and contacting and detaining their 
family members. Authorities even began recalling hundreds of Uyghurs 
studying abroad in Egypt and detaining them upon their return. These 
individuals were being held in ``reeducation centers''--mostly in 
Kashgar, where thousands of people would be held at a time, with little 
if any contact with friends and family outside.
    My worries proved true when I first heard that my brother Kaisar 
Keyum was detained at the end of September last year. Police had taken 
him when he was driving my mother to a doctor's appointment, leaving 
her alone in a car without explanation as she waited for her son who'd 
never return. Other family had to come get her. Kaisar was being held, 
my family learned later, in one of the so-called reeducation 
facilities. We have not seen him since.
    In February, my parents, both elderly and suffering from life-
threatening ailments, went missing. Not being able to talk with my 
mother and father or to learn how they were doing was almost too much 
to bear. Being almost 7,000 miles away, I felt helpless--even more than 
when my brother was taken. I tried contacting other family but could 
not reach them. I learned in February that my aunts, cousins, their 
children--more than 20 people--had been swept up by authorities. I 
found out later that all had been detained on the same day. No one has 
confirmed their whereabouts. But I strongly suspect they are being held 
in these camps, which sources say hold over 1 million Uyghurs--men and 
women, youngsters and the elderly--in cramped and squalid conditions. 
My parents, whom I later discovered were held in medical facilities in 
detention camps, were allowed to leave in March--probably because of 
their poor health. Authorities had questioned my parents about me, my 
whereabouts, and my working for an organization they allege is ``anti-
China.''
    Nobody should suffer such treatment. But at least five of my 
colleagues at Radio Free Asia have also faced similar situations where 
family members in China have been detained. Often they too have heard 
reports of authorities questioning family and friends about their work 
for an ``anti-Chinese'' organization. Like me, they know little if 
anything about their relatives--whether they are well or even alive. 
It's a cruel irony that we as journalists can find out so much about 
what's happening inside China's Northwest, yet so little about our own 
families and loved ones. We are afraid to ask our friends and others 
there because any contact and communication could endanger them as 
well.
    Despite these threats, I know--and my colleagues know--that we must 
continue for the sake of not letting a light be swallowed in the 
darkness, extinguished forever. We ask only that the United States and 
the international community make clear in their dealings with China 
that this treatment of our families in our former homeland is 
unacceptable. I hope and pray for my family to be let go and released, 
but I know even if that happens, they will still live under constant 
threat. I came to the United States to realize a dream--a dream of 
being able to tell the truth without fear. And it may be difficult, but 
I'll keep trying and I'll keep working.
                                 ______
                                 

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

                 Prepared Statement of Hon. Marco Rubio

    Good morning. This is a hearing of the Congressional-Executive 
Commission on China. The title of this hearing is ``Surveillance, 
Suppression, and Mass Detention: Xinjiang's Human Rights Crisis.''

    We will have two panels testifying today. The first panel will 
feature:

  <bullet> Ambassador Kelley E. Currie, Representative of the United States 
on the Economic and Social Council of the United Nations, United States 
Mission to the United Nations, and

  <bullet> Anthony Christino III, Director of the Foreign Policy Division, 
Office of Nonproliferation and Treaty Compliance, Bureau of Industry and 
Security, U.S. Department of Commerce.

    The second panel will include:

  <bullet> Gulchehra Hoja, Uyghur Service journalist, Radio Free Asia,

  <bullet> Rian Thum, Associate Professor at Loyola University New Orleans, 
and

  <bullet> Jessica Batke, Senior Editor at ChinaFile and former research 
analyst at the U.S. Department of State.

    Thank you all for being here.
    I want to begin by noting that this hearing is set against the 
backdrop this week of Secretary of State Mike Pompeo and Ambassador for 
International Religious Freedom Sam Brownback convening the first ever 
State Department Ministerial to Advance International Religious 
Freedom, which has brought together senior representatives from more 
than 70 governments around the world to discuss areas of collaboration 
and partnership in the cause of religious freedom globally.
    Secretary Pompeo penned an op-ed in USA Today earlier this week 
highlighting the Ministerial and the importance of advancing religious 
freedom globally. He specifically mentioned Ms. Gulchehra's family.
    The Chinese government and Communist Party are equal opportunity 
oppressors--targeting unregistered and registered Christians, Tibetan 
Buddhists, Falun Gong practitioners, and others with harassment, 
detention, imprisonment, and more.
    The current human rights crisis unfolding in the Xinjiang Uyghur 
Autonomous Region targeting Muslim minority groups is arguably among 
the worst, if not the most severe, instances in the world today of an 
authoritarian government brutally and systematically targeting a 
minority faith community. This is an issue which the Commission has 
been seized with for some time.
    In April, we wrote U.S. Ambassador to China Terry Branstad urging 
him to prioritize this crackdown in his dealings with the Chinese 
government and to begin collecting information to make the case for 
possible application of Global Magnitsky sanctions against senior 
government and Party officials in the region including Chen Quanguo, 
the current Xinjiang Communist Party Secretary.
    The Commission's forthcoming Annual Report, set to be released in 
October, will prominently feature the grave and deteriorating situation 
in Xinjiang.
    While our expert witnesses will discuss the situation in greater 
detail, I want to take a few minutes to paint a picture of life in 
Xinjiang.
    For months now, there have been credible estimates of between 
800,000 and 1 million people from Xinjiang being held at ``political 
reeducation'' centers or camps which are fortified with barbed wire, 
bombproof surfaces, reinforced doors, and guard rooms.
    Security personnel have subjected detainees to torture, medical 
neglect and maltreatment, solitary confinement, sleep deprivation, lack 
of adequate clothing in cold temperatures, and other forms of abuse, 
resulting in the death of some detainees.
    According to one news source, ``The internment program aims to 
rewire the political thinking of detainees, erase their Islamic beliefs 
and reshape their very identities. The camps have expanded rapidly over 
the past year, with almost no judicial process or legal paperwork. 
Detainees who most vigorously criticize the people and things they love 
are rewarded, and those who refuse to do so are punished with solitary 
confinement, beatings and food deprivation.'' \1\
---------------------------------------------------------------------------
    \1\ http://www.businessinsider.com/what-is-life-like-in-xinjiang-
reeducation-camps-china-2018-5
---------------------------------------------------------------------------
    Some local officials in the region have used chilling political 
rhetoric to describe the purpose of the arbitrary detentions of Uyghur 
Muslims and members of other Muslim ethnic minority groups, such as 
``eradicating tumors'' or spraying chemicals on crops to kill the 
``weeds.'' One expert who is testifying today described Xinjiang Uyghur 
as ``a police state to rival North Korea, with a formalized racism on 
the order of South African apartheid.''
    While the Chinese government has repeatedly denied knowledge of the 
camps, a groundbreaking report by Adrian Zenz, a scholar at the 
European School of Culture and Theology, published through the 
Jamestown Foundation in May, found that Chinese authorities were 
soliciting public bids for the construction of additional camps and the 
addition of security elements to existing facilities. I submit this 
report for the record and would also note the Google Earth footage 
behind me, which clearly shows the construction of these camps over the 
span of several months.
    [The report appears in the Appendix.]
    Those not subject to ``transformation through education'' in 
detention still face daily intrusions in their home life, including 
compulsory ``home stays,'' wherein Communist Party officials and 
government workers are sent to live with local Uyghur and Kazakh 
families.
    The data-driven surveillance in Xinjiang is assisted by iris and 
body scanners, voice pattern analyzers, DNA sequencers, and facial 
recognition cameras in neighborhoods, on roads, and in train stations. 
Two large Chinese firms, Hikvision and Dahua Technology, have profited 
greatly from the surge in security spending, reportedly winning upwards 
of $1.2 billion in government contracts for large-scale surveillance 
projects. Authorities employ hand-held devices to search smart phones 
for encrypted chat apps and require residents to install monitoring 
applications on their cell phones.\2\ More traditional security 
measures are also employed, including extensive police checkpoints.
---------------------------------------------------------------------------
    \2\ https://www.wsj.com/articles/twelve-days-in-xinjiang-how-
chinas-surveillance-state-
overwhelms-daily-life-1513700355
---------------------------------------------------------------------------
    The rise in security personnel is also accompanied by the 
proliferation of ``convenience police stations,'' a dense network of 
street corner, village, or neighborhood police stations that enhance 
authorities' ability to closely surveil and police local communities.
    Just this month, reports emerged of officials, in a humiliating 
public act, cutting the skirts and even long shirts of Uyghur women on 
the spot as they walked through local streets, as a means of enforcing 
a ban on ethnic minorities wearing long skirts.
    And yesterday there was an analysis released by the NGO Chinese 
Human Rights Defenders indicating that 21% of arrests in China last 
year were in Xinjiang, which has only 1.5% of the population. The 
number of arrests increased 731% over the previous year and does not 
include the detentions of those in the ``political reeducation'' 
centers which are carried out extralegally.
    Radio Free Asia has led the way in reporting on this crisis. And it 
has not come without a cost. Developments in Xinjiang have had a direct 
impact on U.S. interests, most notably the detention of dozens of 
family members of U.S.-based Uyghur journalists employed by Radio Free 
Asia, as well as the detention of dozens of family members of prominent 
Uyghur rights activist Rebiya Kadeer, in an apparent attempt by the 
Chinese government to silence effective reporting and rights advocacy. 
We are delighted that RFA journalist Gulchehra Hoja is able to join us 
today to speak to her personal experience in this regard.
    The Commission has convened a series of hearings focused on the 
``long arm'' of China, and that dimension certainly exists as it 
relates to the Uyghur diaspora community, including in the United 
States.
    Without objection, we'll keep the hearing record open for 48 hours 
to submit additional relevant materials including a bipartisan letter 
to Secretary Pompeo that Senators Warner and Gardner are spearheading 
this week--which I am pleased to sign--regarding the cases of the RFA 
journalists' family members.
    [The letter appears in the Appendix.]
                                 ______
                                 

              Prepared Statement of Hon. Christopher Smith

    I commend Senator Rubio for holding this hearing. There is a dire 
need to shine a light on the stunning and outrageous detention of 
nearly one million Uyghurs and other Muslim ethnic minorities in 
Xinjiang.
    What is clear from news reports is that Uyghurs are being detained 
in ``reeducation centers'' throughout Xinjiang. Those interned are 
being asked to renounce Islam, inform on their families for 
``extremism,'' and parrot their love for Xi Jinping and the Communist 
Party.
    Whole families disappear, children are detained, students studying 
abroad and soccer players are detained because of their ``foreign'' 
contacts. There are reports of suicides and deaths and mistreatment in 
these detention centers.
    Human rights champion Rebiya Kadeer's whole family--sons, 
daughters-in-law, grandchildren have disappeared. The disappearance of 
the families of other Uyghurs has also happened--like Radio Free Asia's 
heroic journalists.
    It is mind-boggling. The Chinese government is constructing a high-
tech police state in Xinjiang whose goal is the forcible assimilation 
and ``transformation'' of entire ethnic minority populations and the 
``sinicization'' of their religious beliefs and practices. In fact, 
retaining religious beliefs or attachment to culture and language makes 
one a suspect in Xinjiang.
    All this is being done in the name of counterterrorism and 
counterextremism. But China's repression may just create the extremism 
that they fear. Over the past year, the world has started to see too 
many comparisons between the Nazis and the current Chinese government. 
First there was the death of Liu Xiaobo, the first Nobel Peace Prize 
laureate to die in state custody since Carl von Ossietzky died in Nazi 
internment.
    Now nearly one million are detained in what should be called 
concentration camps--the largest jailing of an ethnic and religious 
minority maybe since the Holocaust, certainly since the apartheid days 
in South Africa. ``Reeducation'' is not a new tactic in China. 
Tibetans, Falun Gong and other dissidents have experienced 
``reeducation through labor''--but the size and scale of what is 
happening to the Uyghurs is audaciously repressive, even by China's low 
standards.
    Where is the outrage? Where is the anger? I commend the State 
Department and Secretary Pompeo for their public statements. But why 
has the Organisation of Islamic Cooperation been silent? What have 
Turkey and other Turkic nations been doing to address this issue?
    We are at a critical point. Governments and parliamentarians need 
to condemn what is happening in Xinjiang. The UN must investigate and 
seek answers to what may be massive human rights abuses or worse. 
Businesses, non-governmental organizations, and academics that remain 
silent--because they want to remain in favor with the Chinese 
government and Communist Party--risk losing their integrity by doing 
so.
    The International Olympic Committee should be asked to reassess 
China's hosting of the 2022 games if they maintain an apartheid-like 
police state targeting Muslim minorities. How can any law firm or lobby 
shop shill for the government of China while Uyghurs are so brutally 
and forcefully assimilated? Or when Tibetans, Christians, human rights 
lawyers, and Falun Gong are systematically repressed?
    I heard former Congressman Frank Wolf say recently that in the 
1980s, no firm would have dared to work for the Soviet Union--but now 
China's cash is too tempting to turn down even for some of my former 
House colleagues. Shame. Shame. It is really a shame.
    I wonder if the Congress should consider limiting U.S. Government 
contracts by the exact amount lobby firms receive from China, Russia, 
or some other authoritarian government. That would make for some 
interesting business choices. Either make no profit from your dealings 
with China or choose to represent an increasingly repressive and 
authoritarian Chinese government.
    No one should profit from representing authoritarian countries, 
particularly when they constantly seek to undermine U.S. values and 
interests. Chinese officials also should not profit from their 
complicity in torture and arbitrary detention. This is the exact reason 
the Congress passed the Global Magnitsky Act.
    The Senator and I have urged the State Department to consider 
levying Magnitsky sanctions on officials in Xinjiang. We will continue 
to do so and press for the use of this important tool to hold officials 
accountable. We urge anyone with specific and credible information 
about the complicity of Chinese government officials in human rights 
abuses in Xinjiang to send that information to us. We will make sure it 
gets to the State and Treasury Departments.
    I also think the sanctions available in the International Religious 
Freedom Act of 1998 should be considered, particularly broad economic 
sanctions targeting industries in Xinjiang that benefit China's 
political leaders or other ``state-owned entities.'' We want to make 
sure that Uyghurs and other Muslim ethnic minorities do not suffer from 
such sanctions, but they do not much share in the wealth generated by 
Chinese populations right now.
    China has been designated as a ``Country of Particular Concern'' 
since 1999. That designation carries with it the possibility of 
economic sanctions. This lever should be used now because, in my 
opinion, what is happening in Xinjiang is currently the world's worst 
religious freedom situation--the forced ``sinicization'' of Islam 
through detention and severe restrictions on religious belief and 
practice. Targeted and tough economic sanctions are the only way to 
convince China's leaders that they have a clear interest in ending the 
repression of China's Muslim minorities.
    There is also an important role for the UN here. I am glad that 
Ambassador Currie is here with us today. What is happening in Xinjiang 
are clear violations of many international treaties and covenants to 
which China is a party. I realize that China's veto on the UN Security 
Council will create obstacles to many UN investigations, as will their 
presence on the UN Human Rights Council, but we should be making them 
use their veto, we should consider requesting a briefing on the 
situation at the Security Council and work together with the OIC and 
other Muslim-majority countries to raise the issue within the UN 
system. At a time when the Chinese government is seeking to gain allies 
through its Belt and Road Initiative, particularly in Central Asia and 
Africa, it would seem the last thing they want is an international 
debate about their poor and abusive treatment of ethnic and religious 
minorities.
    Finally, I want to commend the exemplary work of Radio Free Asia's 
Uyghur Service reporters. Despite unacceptable threats to their 
families, they have kept working and have provided us with an 
extraordinary record of events. Your courage and professionalism are 
admirable. Thank you.
    Senator, I commend you again for holding this important hearing to 
shine a light on an outrageous and horrible situation. We all need to 
believe in the power of light and sunshine because evil flourishes only 
in the dark.
                                 ______
                                 

                       Submissions for the Record

                              ----------                              


                   Article Submitted by Senator Rubio
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          2018 The Jamestown Foundation. All rights reserved.
                   Article Submitted by Senator King

                                 ______
                                 

                 Apartheid with Chinese Characteristics

      china has turned xinjiang into a police state like no other

   Totalitarian Determination and Modern Technology Have Produced a 
                     Massive Abuse of Human Rights

                   [From The Economist, May 31, 2018]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

     Hotan, Xinjiang Province.--``The prophet Sulayman approached his 
son and said to him, `I have received a message from God. I want you to 
circle the Earth and see if there are more people who are alive in 
spirit or more people who are dead in spirit.' After a period the son 
returned and said, `Father, I went to many places and everywhere I went 
I saw more people who were dead than those who were alive.' ''
    Hasan shared that message on a WeChat social-messaging group in 
2015, when he was 23. Born in Yarkand, a town in southern Xinjiang, 
Hasan had moved to the provincial capital, Urumqi, to sell jade and 
shoes and to learn more about Islam. He described himself to Darren 
Byler, an anthropologist from the University of Washington, as a Sufi 
wanderer, a pious man with a wife and small daughter, who prayed five 
times a day and disapproved of dancing and immodesty.
    But in January 2015 the provincial government was demanding that 
everyone in Urumqi return to their native home to get a new identity 
card. ``I am being forced to go back,'' Hasan complained to Mr. Byler. 
``The Yarkand police are calling me every day. They are making my 
parents call me and tell me the same thing.'' Eventually, he and his 
family boarded a bus for the 20-hour journey home. It was hit by a 
truck. Hasan's wife and daughter were killed. He was hospitalized. ``It 
was the will of Allah,'' he said.
    Hasan hoped the authorities would allow him to return to Urumqi 
because of his injuries. No chance. Having lost wife, child and 
livelihood, Hasan lost his liberty, too. A fortnight after his 
accident, he was sent to a reeducation camp for an indefinite period. 
There, for all his relatives know, he remains.
    Hasan is one of hundreds of thousands of Uighurs, a Turkic-language 
people, who have disappeared in Xinjiang, China's northwestern 
province. It is an empty, far-flung place; Hasan's home town of Yarkand 
is as close to Baghdad as it is to Beijing. It is also a crucial one. 
The region is China's biggest domestic producer of oil and gas, and 
much of the fuel imported from Central Asia and Russia passes through 
on its way to the industries of the east coast. It is now a vital link 
in the Belt and Road Initiative, a foreign policy which aims to bind 
the Middle East and Europe to China with ties of infrastructure, 
investment and trade.
    But on top of that it is the home of the Uighurs, the largest 
Muslim group in the country, and ethnically quite distinct from the Han 
Chinese. A recent history of Uighur unrest_in particular bloody inter-
ethnic violence in Urumqi in 2009 that followed the murder of Uighurs 
elsewhere in China_and subsequent terrorism have sent the government's 
repressive tendencies into overdrive. Under a new party boss, Chen 
Quanguo, appointed in 2016, the provincial government has vastly 
increased the money and effort it puts into controlling the activities 
and patrolling the beliefs of the Uighur population. Its regime is 
racist, uncaring and totalitarian, in the sense of aiming to affect 
every aspect of people's lives. It has created a full-fledged police 
state. And it is committing some of the most extensive, and neglected, 
human-rights violations in the world.
                    the not-quite-gulag archipelago
    The government is building hundreds or thousands of unacknowledged 
reeducation camps to which Uighurs can be sent for any reason or for 
none. In some of them day-to-day conditions do not appear to be 
physically abusive as much as creepy. One released prisoner has said he 
was not permitted to eat until he had thanked Xi Jinping, the Chinese 
president, and the Communist Party. But there have been reports of 
torture at others. In January, 82-year-old Muhammad Salih Hajim, a 
respected religious scholar, died in detention in Urumqi.
    Kashgar, the largest Uighur city, has four camps, of which the 
largest is in Number 5 Middle School. A local security chief said in 
2017 that ``approximately 120,000'' people were being held in the city. 
In Korla, in the middle of the province, a security official recently 
said the camps are so full that officials in them are begging the 
police to stop bringing people.
    As a result, more and more camps are being built: the reeducation 
archipelago is adding islands even faster than the South China Sea. 
Adrian Zenz of the European School of Culture and Theology in Kortal, 
Germany, has looked at procurement contracts for 73 reeducation camps. 
He found their total cost to have been 682m yuan ($108m), almost all 
spent since April 2017. Records from Akto, a county near the border 
with Kyrgyzstan, say it spent 9.6% of its budget on security (including 
camps) in 2017. In 2016 spending on security in the province was five 
times what it had been in 2007. By the end of 2017 it was ten times 
that: 59bn yuan.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    For all this activity, the government has not officially confirmed 
that the camps exist. They are not governed by any judicial process; 
detentions are on the orders of the police or party officials, not the 
verdict of a court. A woman working as an undertaker was imprisoned for 
washing bodies according to Islamic custom. Thirty residents of Ili, a 
town near the Kazakh border, were detained ``because they were 
suspected of wanting to travel abroad,'' according to the local 
security chief. Other offences have included holding strong religious 
views, allowing others to preach religion, asking where one's relatives 
are and failing to recite the national anthem in Chinese.
    A significant chunk of the total Uighur population is interned in 
this way. If the rate of detention in Kashgar applied to the province 
as a whole, 5% of the Uighur population of 10m would be detained. Other 
evidence suggests that this is quite possible. In February, Radio Free 
Asia, a broadcaster financed by an independent agency of the American 
government, cold-called 11 families at random in Araltobe, in the north 
of the province, far from the Uighurs' heartland. Six said family 
members had been sent to camps. In a village later visited by Agence 
France Presse in Qaraqash county, near Hotan, a fifth of adults had 
been detained over four months.
    Maya Wang of Human Rights Watch, an advocacy group, reckons the 
overall number detained may be 800,000. Timothy Grose, a professor at 
Rose-Hulman University in Indiana, puts the total between 500,000 and 
1m, which would imply that something like a sixth to a third of young 
and middle-aged Uighur men are being detained, or have been at some 
point in the past year.
    The Chinese government argues that harsh measures are needed to 
prevent violence associated with Uighur separatism. In 2013 a Uighur 
suicide-driver crashed his car into pedestrians in Tiananmen Square in 
Beijing. In 2014 a knife-wielding Uighur gang slaughtered 31 travellers 
at a train station in Kunming, Yunnan province, an incident some in 
China compared to the September 11th 2001 attacks on America. Unrest in 
Yarkand later that year led to a hundred deaths; an attack at a coal 
mine in Aksu killed 50 people. Kyrgyz authorities blamed Uighur 
terrorists for an attempt to blow up the Chinese embassy in Bishkek; 
Uighurs have been blamed for a bombing which killed 20 at a shrine in 
Bangkok popular with Chinese tourists.
    There are worrying links, as the Chinese authorities are keen to 
point out, between Uighur separatism and global jihad, especially in 
the Uighur diaspora, which is based in Turkey. Chinese and Syrian 
officials say 1,500 Uighurs have fought with Islamic State (IS) or 
Jabhat al-Nusra (part of al-Qaeda) in Syria. A group called the 
Turkestan Islamic Party, which demands independence for Xinjiang, is 
banned under anti-terrorist laws in America and Europe. In 2016 a 
defector from IS provided a list of foreign recruits; 114 came from 
Xinjiang.
                              in the grid
    But the system of repression in the province goes far beyond 
anything that would be justified by such proclivities and affiliations. 
In Hotan there is a new police station every 300 meters or so. They are 
called ``convenience police stations,'' as if they were shops_and in 
fact they do offer some consumer services, such as bottled water and 
phone recharging. The windowless stations, gunmetal gray, with 
forbidding grilles on their doors, are part of a ``grid-management 
system'' like that which Mr. Chen pioneered when he was party boss in 
Tibet from 2011 to 2016. The authorities divide each city into squares, 
with about 500 people. Every square has a police station that keeps 
tabs on the inhabitants. So, in rural areas, does every village.
    At a large checkpoint on the edge of Hotan a policeman orders 
everyone off a bus. The passengers (all Uighur) take turns in a booth. 
Their identity cards are scanned, photographs and fingerprints of them 
are taken, newly installed iris-recognition technology peers into their 
eyes. Women must take off their headscarves. Three young Uighurs are 
told to turn on their smartphones and punch in the passwords. They give 
the phones to a policeman who puts the devices into a cradle that 
downloads their contents for later analysis. One woman shouts at a 
policeman that he is Uighur, why is he looking at her phone?
    There can be four or five checkpoints every kilometer. Uighurs go 
through them many times a day. Shops and restaurants in Hotan have 
panic buttons with which to summon the police. The response time is one 
minute. Apparently because of the Kunming knife attack, knives and 
scissors are as hard to buy as a gun in Japan. In butchers and 
restaurants all over Xinjiang you will see kitchen knives chained to 
the wall, lest they be snatched up and used as weapons. In Aksu, QR 
codes containing the owner's identity-card information have to be 
engraved on every blade.
    Remarkably, all shops and restaurants in Hotan must have a part-
time policeman on duty. Thousands of shop assistants and waiters have 
been enrolled in the police to this end. Each is issued with a helmet, 
flak jacket and three-foot baton. They train in the afternoon. In the 
textile market these police officers sit in every booth and stall, 
selling things; their helmets and flak jackets, which are 
uncomfortable, are often doffed. A squad of full-time police walks 
through the market making sure security cameras are working and 
ordering shop assistants to put their helmets back on. Asked why they 
wear them, the assistants reply tersely_``security.''
    At the city's railway station, travellers go through three rounds 
of bag checks before buying a ticket. On board, police walk up and down 
ordering Uighurs to open their luggage again. As the train pulls into 
Kashgar, it passes metal goods wagons. A toddler points at them 
shouting excitedly ``Armoured car! Armoured car!'' Paramilitary 
vehicles are more familiar to him than rolling stock.
    Uniformed shop assistants, knife controls and ``convenience police 
stations'' are only the most visible elements of the police state. The 
province has an equally extensive if less visible regime that uses yet 
more manpower and a great deal of technology to create total 
surveillance.
                    improving lives, winning hearts
    Under a system called fanghuiju, teams of half a dozen_composed of 
policemen or local officials and always including one Uighur speaker, 
which almost always means a Uighur_go from house to house compiling 
dossiers of personal information. Fanghuiju is short for ``researching 
people's conditions, improving people's lives, winning people's 
hearts.'' But the party refers to the work as ``eradicating tumors.'' 
The teams_over 10,000 in rural areas in 2017_report on ``extremist'' 
behavior such as not drinking alcohol, fasting during Ramadan and 
sporting long beards. They report back on the presence of 
``undesirable'' items, such as Korans, or attitudes_such as an 
``ideological situation'' that is not in wholehearted support of the 
party.
    Since the spring of 2017, the information has been used to rank 
citizens' ``trustworthiness'' using various criteria. People are deemed 
trustworthy, average or untrustworthy depending on how they fit into 
the following categories: 15 to 55 years old (i.e., of military age); 
Uighur (the catalogue is explicitly racist: people are suspected merely 
on account of their ethnicity); unemployed; have religious knowledge; 
pray five times a day (freedom of worship is guaranteed by China's 
constitution); have a passport; have visited one of 26 countries; have 
ever overstayed a visa; have family members in a foreign country (there 
are at least 10,000 Uighurs in Turkey); and home school their children. 
Being labelled ``untrustworthy'' can lead to a camp. To complete the 
panorama of human surveillance, the government has a programme called 
``becoming kin'' in which local families (mostly Uighur) ``adopt'' 
officials (mostly Han). The official visits his or her adoptive family 
regularly, lives with it for short periods, gives the children presents 
and teaches the household Mandarin. He also verifies information 
collected by fanghuiju teams. The programme appears to be immense. 
According to an official report in 2018, 1.1m officials have been 
paired with 1.6m families. That means roughly half of Uighur households 
have had a Han-Chinese spy/indoctrinator assigned to them.
    Such efforts map the province's ideological territory family by 
family; technology maps the population's activities street by street 
and phone by phone. In Hotan and Kashgar there are poles bearing 
perhaps eight or ten video cameras at intervals of 100-200 meters along 
every street; a far finer-grained surveillance net than in most Chinese 
cities. As well as watching pedestrians the cameras can read car number 
plates and correlate them with the face of the person driving. Only 
registered owners may drive cars; anyone else will be arrested, 
according to a public security official who accompanied this 
correspondent in Hotan. The cameras are equipped to work at night as 
well as by day.
    Because the government sees what it calls ``web cleansing'' as 
necessary to prevent access to terrorist information, everyone in 
Xinjiang is supposed to have a spyware app on their mobile phone. 
Failing to install the app, which can identify people called, track 
online activity and record social-media use, is an offence. ``Wi-Fi 
sniffers'' in public places keep an eye, or nose, on all networked 
devices in range.
    Next, the records associated with identity cards can contain 
biometric data including fingerprints, blood type and DNA information 
as well as the subject's detention record and ``reliability status.'' 
The government collects a lot of this biometric material by stealth, 
under the guise of a public-health programme called ``Physicals for 
All,'' which requires people to give blood samples. Local officials 
``demanded [we] participate in the physicals,'' one resident of Kashgar 
told Human Rights Watch, an NGO. ``Not participating would have been 
seen as a problem . . . .''
    A system called the Integrated Joint Operations Platform (IJOP), 
first revealed by Human Rights Watch, uses machine-learning systems, 
information from cameras, smartphones, financial and family-planning 
records and even unusual electricity use to generate lists of suspects 
for detention. One official WeChat report said that verifying IJOP's 
lists was one of the main responsibilities of the local security 
committee. Even without high-tech surveillance, Xinjiang's police state 
is formidable. With it, it becomes terrifying.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    In theory, the security system in Xinjiang applies to everyone 
equally. In practice it is as race-based as apartheid in South Africa 
was. The security apparatus is deployed in greatest force in the 
southwest, where around 80% of Uighurs live. In a city like Shihezi, 
which is 95% Han, there are far fewer street checkpoints, if any, and a 
normal level of policing. Where there are checkpoints, Han Chinese are 
routinely waved through. Uighurs are always stopped.
                         the minarets torn down
    Islam is a special target. In Hotan, the neighbourhood mosques have 
been closed, leaving a handful of large places of worship. Worshippers 
must register with the police before attending. At the entrance to the 
largest mosque in Kashgar, the Idh Kha_a famous place of pilgrimage_two 
policemen sit underneath a banner saying ``Love the party, love the 
country.'' Inside, a member of the mosque's staff holds classes for 
local traders on how to be a good communist. In Urumqi the remaining 
mosques have had their minarets knocked down and their Islamic 
crescents torn off. Some 29 Islamic names may no longer be given to 
children. In schools, Uighur-language instruction is vanishing_another 
of the trends which have markedly accelerated under Mr. Chen. Dancing 
after prayers and specific Uighur wedding ceremonies and funerary rites 
are prohibited.
    Unlike those of South Africa, the two main racial groups are well 
matched in size. According to the 2010 census, Uighurs account for 46% 
of the province's population and Han Chinese 40% (the rest are smaller 
minorities such as Kazakhs and Kyrgyz). But they live apart and see the 
land in distinct ways. Uighurs regard Xinjiang as theirs because they 
have lived in it for thousands of years. The Han Chinese regard it as 
theirs because they have built a modern economy in its deserts and 
mountains. They talk of bringing ``modern culture'' and ``modern 
lifestyle'' to the locals_by which they mean the culture and lifestyle 
of modern Han China.
    So how have the Han and Uighur reacted to the imposition of a 
police state? Yang Jiehun and Xiao Junduo are Han Chinese veterans of 
the trade in Hotan jade (which the Chinese hold to be the best in the 
world, notably in its very pale ``mutton-fat'' form). Asked about 
security, they give big smiles, a thumbs-up and say the past year's 
crackdown has been ``really well received.'' ``In terms of public 
security, Urumqi is the safest it has ever been,'' says Mr. Xiao, whose 
family came to the province in the 1950s, when the People's Liberation 
Army and state-owned enterprises were reinforcing the border with the 
Soviet Union. ``The Uighurs are being helped out of poverty,'' he 
avers. ``They understand and support the policy.''
    Not all Han Chinese in Xinjiang are quite as enthusiastic. Tens of 
thousands came to the province fairly recently, mostly in the 1990s, to 
seek their fortunes as independent traders and business people, rather 
than being transferred there by state-owned companies or the army. They 
approve of better security but dislike the damage being done to the 
economy_for example, the way movement controls make it harder to employ 
Uighurs. So far, this ambivalence is not seriously weakening the 
support among the Han and, for the government in Beijing, that is all 
that matters. It sees Xinjiang mainly as a frontier. The Han are the 
principal guarantors of border security. If they are happy, so is the 
government.
    The Uighur reaction is harder to judge; open criticism or talking 
to outsiders can land you in jail. The crackdown has been effective 
inasmuch as there have been no (known) Uighur protests or attacks since 
early 2017. It seems likely that many people are bowing before the 
storm. As Sultan, a student in Kashgar, says with a shrug: ``There's 
nothing we can do about it.''
    But there are reasons for thinking resentment is building up below 
the surface. According to anthropological work by Mr. Byler and Joanne 
Smith Finley of Newcastle University in Britain, a religious revival 
had been under way before the imposition of today's harsh control. 
Mosques were becoming more crowded, religious schools attracting more 
pupils. Now the schools and mosques are largely empty, even for Friday 
prayers. It is hard to believe that religious feeling has vanished. 
More likely a fair bit has gone underground.
    And the position of Uighurs who cooperate with the Han authorities 
is becoming untenable. The provincial government needs the Uighur elite 
because its members have good relations with both sides. The expansion 
of the police state has added to the number of Uighurs it needs to co-
opt. According to Mr. Zenz and James Leibold of La Trobe University in 
Melbourne, 90% of the security jobs advertised in 2017 were ``third 
tier'' jobs for low-level police assistants: cheap, informal contracts 
which mainly go to Uighurs. But at the same time as needing more 
Uighurs, the authorities have made it clear that they do not trust 
them. Part of the repression has been aimed at ``two-faced officials'' 
who (the party says) are publicly supporting the security system while 
secretly helping victims. Simultaneously recruiting more Uighurs and 
distrusting them more creates an ever larger pool that might one day 
turn against the system from within.
    A Han businessman who travels frequently between Urumqi and Kashgar 
says he used to feel welcome in the south. ``Now it has all changed. 
They are not afraid. But they are resentful. They look at me as if they 
are wondering what I am doing in their country.'' One of the few 
detainees released from the camps, Omurbek Eli, told RFA that the 
authorities ``are planting the seeds of hatred and turning [detainees] 
into enemies. This is not just my view_the majority of people in the 
camp feel the same way.''
                            hasan's warning
    China's Communist rulers believe their police state limits 
separatism and reduces violence. But by separating the Uighur and Han 
further, and by imposing huge costs on one side that the other side, 
for the most part, blithely ignores, they are ratcheting up tension. 
The result is that both groups are drifting towards violence. Before he 
disappeared, Hasan, the self-styled Sufi wanderer, expressed Xinjiang's 
plight. ``To be Uighur is hard,'' he wrote on WeChat in 2015. ``I don't 
even know what I am accused of, but I must accept their judgment. I 
have no choice. Where there is no freedom, there is tension. Where 
there is tension, there are incidents. Where there are incidents, there 
are police. Where there are police, there is no freedom.''
                                 ______
                                 

                     Article Submitted by Rian Thum

                               __________

          What Really Happens in China's `Re-education' Camps

                [From The New York Times, May 15, 2018]

                         (By Rian Thum) <SUP>1

    </SUP>What does it take to intern half a million members of one 
ethnic group in just a year? Enormous resources and elaborate 
organization, but the Chinese authorities aren't stingy. Vast swathes 
of the Uighur population in China's western region of Xinjiang--as well 
as Kazakhs, Kyrgyz and other ethnic minorities--are being detained to 
undergo what the state calls ``transformation through education.'' Many 
tens of thousands of them have been locked up in new thought-control 
camps with barbed wire, bombproof surfaces, reinforced doors and guard 
rooms.
    The Chinese authorities are cagey and evasive, if not downright 
dismissive, about reports concerning such camps. But now they will have 
to explain away their own eloquent trail of evidence: an online public 
bidding system set up by the government inviting tenders from 
contractors to help build and run the camps.
    Uighurs have more in common, culturally and linguistically, with 
Turks than Han Chinese, and many Uighurs are Muslim. Resentful of 
China's heavy-handed rule in the region, some have resisted it, usually 
through peaceful means, but on occasion violently, by attacking 
government officials and, exceptionally, civilians. The state, for its 
part, fuels Islamophobia by labeling ordinary Muslim traditions as the 
manifestation of religious ``extremism.''
    Over the last decade, the Xinjiang authorities have accelerated 
policies to reshape Uighurs' habits--even, the state says, their 
thoughts. Local governments organize public ceremonies and signings 
asking ethnic minorities to pledge loyalty to the Chinese Communist 
Party; they hold mandatory reeducation courses and forced dance 
performances, because some forms of Islam forbid dance. In some 
neighborhoods, security organs carry out regular assessments of the 
risk posed by residents: Uighurs get a 10 percent deduction on their 
score for ethnicity alone and lose another 10 percent if they pray 
daily.
    Uighurs had grown accustomed to living under an intrusive state, 
but measures became draconian after the arrival in late 2016 of a new 
regional party chief from Tibet. Since then, some local police officers 
have said that they struggled to meet their new detention quotas--in 
the case of one village, 40 percent of the population.
    A new study by Adrian Zenz, a researcher at the European School of 
Culture and Theology, in Korntal, Germany, analyzed government ads 
inviting tenders for various contracts concerning reeducation 
facilities in more than 40 localities across Xinjiang, offering a 
glimpse of the vast bureaucratic, human and financial resources the 
state dedicates to this detention network. The report reveals the 
state's push to build camps in every corner of the region since 2016, 
at a cost so far of more than 680 million yuan (over $107 million).
    A bid invitation appears to have been posted on April 27--a sign 
that more camps are being built. These calls for tenders refer to 
compounds of up to 880,000 square feet, some with quarters for People's 
Armed Police, a paramilitary security force. Local governments are also 
placing ads to recruit camp staff with expertise in criminal psychology 
or a background in the military or the police force.
    Evidence of these technical details is invaluable, especially 
considering the growing difficulties faced by researchers and reporters 
trying to work in Xinjiang. Several foreign journalists have produced 
important articles, despite police harassment and brief arrests; ethnic 
Uighur reporters, or their families, endure far worse.
    Given the risks, firsthand accounts from former detainees remain 
rare--although a few are starting to emerge.
    In February, a Uighur man studying in the United States gave 
Foreign Policy one of the most detailed descriptions of detention 
conditions published to date. He was arrested upon returning to China 
for a visit last year, and then held for 17 days on no known charge. He 
described long days of marching in a crowded cell, chanting slogans and 
watching propaganda videos about purportedly illegal religious 
activities. As he was being released, a guard warned him, ``Whatever 
you say or do in North America, your family is still here and so are 
we.''

--------------
    \1\ Rian Thum is an associate professor of history at Loyola 
University New Orleans and the author of ``The Sacred Routes of Uyghur 
History.'' He has been conducting research in Xinjiang, China, for 
nearly two decades. https://www.nytimes.com/2018/05/15/opinion/china-
re-
education-camps.html
    Last month, an ethnic Kazakh man described to Radio Free Europe/
Radio Liberty his four-month stint in a camp in northern Xinjiang. He 
met inmates serving terms as long as seven years. He said he had been 
made to study how ``to keep safe the domestic secrets'' of China and 
``not to be a Muslim.'' In these cases, as in many others, detainees 
were held incommunicado, their families left to wonder what had 
happened to them.
    And now these rare eyewitness accounts are being corroborated, if 
unwittingly, by the Chinese state itself, as it makes public calls for 
contracts to build even more detention camps.
    Many details of this carceral system are hidden, and remain 
unknown--in fact, even the camps' ultimate purpose is not entirely 
clear.
    They serve as grounds for compulsory indoctrination. Some officials 
use them for prevention as well, to lock down people they presumptively 
suspect of opposing Chinese rule: In two localities the authorities 
have targeted people under 40, claiming that this age group is a 
``violent generation.''
    The camps are also tools of punishment, and of course, a threat. 
Few detainees are formally charged, much less sentenced. Some are told 
how long a term they will serve; others are simply held indefinitely. 
This uncertainty--the arbitrary logic of detention--instills fear in 
the entire population.
    Surveillance was markedly heightened during my last trip to 
Xinjiang in December--so much so that I avoided talking to Uighurs then 
for fear that just being in contact with a foreigner would get them 
sent away for reeducation. Meanwhile, my Uighur contacts outside China 
were pointing to the quota-based purges of the Communists' Anti-
Rightist campaign of 1957-1959 and ever-shifting rules during the 
Cultural Revolution to explain that even if Uighurs in Xinjiang today 
wanted to submit wholly to the security regime, they no longer knew how 
to. Joining the security services used to be a rare way to ensure one's 
personal safety. Not anymore.
    Tens of thousands of families have been torn apart; an entire 
culture is being criminalized. Some local officials use chilling 
language to describe the purpose of detention, such as ``eradicating 
tumors'' or spraying chemicals on crops to kill the ``weeds.''
    Labeling with a single word the deliberate and large-scale 
mistreatment of an ethnic group is tricky: Old terms often camouflage 
the specifics of new injustices. And drawing comparisons between the 
suffering of different groups is inherently fraught, potentially 
reductionist. But I would venture this statement to describe the plight 
of China's Uighurs, Kazakhs and Kyrgyz today: Xinjiang has become a 
police state to rival North Korea, with a formalized racism on the 
order of South African apartheid.
    There is every reason to fear that the situation will only worsen. 
Several accounts of Uighurs dying in detention have surfaced recently--
a worrisome echo of the established use of torture in China's 
reeducation camps for followers of the spiritual movement Falun Gong. 
And judging by their camp-building spree in Xinjiang, the Chinese 
authorities don't seem to think they have come close to achieving 
whatever their goal there is.
                                 ______
                                 

         Letter to Secretary Pompeo Submitted by Senator Rubio
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                          Witness Biographies

                              ----------                              

    Ambassador Kelley E. Currie, Representative of the United States on 
the Economic and Social Council of the United Nations, United States 
Mission to the United Nations

    Ambassador Kelley E. Currie currently serves as the Representative 
of the United States on the Economic and Social Council of the United 
Nations, and Alternate Representative of the United States of America 
to the Sessions of the General Assembly of the United Nations. 
Ambassador Currie specializes in political reform, development and 
humanitarian assistance, human rights, and other non-traditional 
security issues in the Asia-Pacific region. She previously was a Senior 
Fellow with the Project 2049 Institute and held senior policy positions 
with the Department of State and several international and non-
governmental human rights and humanitarian organizations. She also 
served as foreign operations appropriations associate and staff 
director of the Congressional Human Rights Caucus for Congressman John 
Porter of Illinois. She holds a J.D. from Georgetown University Law 
Center and a B.A. cum laude from the University of Georgia's School of 
Public and International Affairs. She is married to Peter Currie and 
they have two children.

    Anthony Christino III, Director of the Foreign Policy Division, 
Office of Nonproliferation and Treaty Compliance, Bureau of Industry 
and Security, U.S. Department of Commerce

    Anthony Christino is the Director of the Foreign Policy Division 
within the Office of Nonproliferation and Treaty Compliance of the 
Export Administration of the Bureau of Industry and Security (BIS) at 
the U.S. Department of Commerce. As such, he is responsible for 
licensing and the formulation of export control policy related to 
countries subject to sanctions and special controls. Mr. Christino has 
represented BIS in a wide variety of U.S. Government export control 
fora and numerous industry outreach programs as well as in bilateral 
and multilateral meetings with foreign governments. He holds a 
bachelor's degree in international relations and a master's degree in 
national security studies.

    Gulchehra Hoja, Uyghur Service journalist, Radio Free Asia

    Gulchehra ``Guli'' Hoja is a broadcaster with Radio Free Asia's 
Uyghur Service, where she has worked since 2001. Prior to RFA, Ms. Hoja 
was a successful TV personality and journalist in China's Uyghur 
Region. But after hearing RFA's Uyghur Service, she decided to leave 
China and join the U.S. effort to provide the Uyghur people with 
trustworthy, uncensored journalism. At least two dozen of Ms. Hoja's 
China-based relatives are missing, including her younger brother, who 
was detained last September, all presumed to be held in so-called 
``reeducation camps.'' Her parents were detained in February but were 
released because of health issues. She has a bachelor's degree in 
Uyghur language and literature from Xinjiang Normal University. Ms. 
Hoja is a U.S. citizen, and lives in Woodbridge, Virginia with her 
husband and three children.

    Rian Thum, Associate Professor, Loyola University New Orleans

    Dr. Thum is an Associate Professor of History at Loyola University 
in New Orleans and a Fellow of the American Council of Learned 
Societies. Dr. Thum's research and teaching are generally concerned 
with the overlap of China and the Muslim World. His book, ``The Sacred 
Routes of Uyghur History'' (Harvard University Press, 2014) received 
the American Historical Association's Fairbank Prize and the American 
Anthropological Association's Hsu Prize.

    Jessica Batke, Senior Editor, ChinaFile and former Research Analyst 
at the Department of State

    Jessica Batke is a ChinaFile Senior Editor and runs The China NGO 
Project. She is an expert on China's domestic political and social 
affairs, and served as a Research Analyst at the State Department's 
Bureau of Intelligence and Research for nearly eight years prior to 
joining ChinaFile. In 2016, she was a Visiting Academic Fellow at 
MERICS in Berlin, where she published papers on Chinese leadership 
politics and created databases to catalogue hard-to-find, high-level 
Chinese policy documents and details about policy advisory groups. She 
is proficient in Mandarin.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
